<html>
<title> - [H.A.S.C. No. 115-46] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2018 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED FIFTEENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]






 
                        [H.A.S.C. No. 115-46]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2018

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                SUBCOMMITTEE ON STRATEGIC FORCES HEARING

                                   ON

                    FISCAL YEAR 2018 PRIORITIES AND

                    POSTURE OF THE NATIONAL SECURITY

                            SPACE ENTERPRISE

                               __________

                              HEARING HELD
                              MAY 19, 2017


   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                  
                                    




                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-868                         WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
 

















  


                    SUBCOMMITTEE ON STRATEGIC FORCES

                     MIKE ROGERS, Alabama, Chairman

TRENT FRANKS, Arizona, Vice Chair    JIM COOPER, Tennessee
DOUG LAMBORN, Colorado               SUSAN A. DAVIS, California
DUNCAN HUNTER, California            RICK LARSEN, Washington
MO BROOKS, Alabama                   JOHN GARAMENDI, California
JIM BRIDENSTINE, Oklahoma            BETO O'ROURKE, Texas
MICHAEL R. TURNER, Ohio              DONALD NORCROSS, New Jersey
MIKE COFFMAN, Colorado               COLLEEN HANABUSA, Hawaii
BRADLEY BYRNE, Alabama               RO KHANNA, California
SAM GRAVES, Missouri
                 Steve Kitay, Professional Staff Member
                         Leonor Tomero, Counsel
                           Mike Gancio, Clerk
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Cooper, Hon. Jim, a Representative from Tennessee, Ranking 
  Member, Subcommittee on Strategic Forces.......................     2
Rogers, Hon. Mike, a Representative from Alabama, Chairman, 
  Subcommittee on Strategic Forces...............................     1

                               WITNESSES

Buck, Lt Gen David J.. USAF, Commander, Joint Functional 
  Component Command for Space, U.S. Strategic Command............     3
Cardillo, Robert, Director, National Geospatial-Intelligence 
  Agency.........................................................     6
Hill, John D., Performing the Duties of Deputy Assistant 
  Secretary of Defense for Space Policy, Office of the Under 
  Secretary of Defense for Policy................................     7
Raymond, Gen John W., USAF, Commander, Air Force Space Command...     2
Sapp, Betty, Director, National Reconnaissance Office............     4

                                APPENDIX

Prepared Statements:

    Buck, Lt Gen David J.........................................    50
    Cardillo, Robert.............................................    70
    Hill, John D.................................................    79
    Raymond, Gen John W..........................................    31
    Rogers, Hon. Mike............................................    29
    Sapp, Betty..................................................    63

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Bridenstine..............................................    99
    Mr. Franks...................................................    91
    Mr. Hunter...................................................    97
    Mr. Lamborn..................................................    94
    Mr. Rogers...................................................    91
    
    
    
    
FISCAL YEAR 2018 PRIORITIES AND POSTURE OF THE NATIONAL SECURITY SPACE 
                               ENTERPRISE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                              Washington, DC, Friday, May 19, 2017.
    The subcommittee met, pursuant to call, at 7:59 a.m., in 
room 2118, Rayburn House Office Building, Hon. Mike Rogers 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MIKE ROGERS, A REPRESENTATIVE FROM 
      ALABAMA, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Rogers. Good morning, and welcome to the Strategic 
Forces Subcommittee hearing, ``Fiscal Year 2018 Priorities and 
Posture of the National Security Space Enterprise.'' We are 
honored to have a panel of expert witnesses who are leaders in 
our national security space program to join us here today. And 
before I introduce them, though, I want to take a moment to 
acknowledge that, while I can't imagine there being a better 
place to work than for the Strategic Forces Subcommittee on the 
House Armed Services Committee, apparently, somebody thinks 
there is a better job in Washington, DC. This will be the last 
hearing that Steve Kitay will be in his current position. He is 
leaving us to go work for the Secretary of Defense, he will be 
the Assistant Secretary of Defense for Space Policy. And our 
loss is the Secretary's gain. So we are going to miss him. He 
has been with as long time and does a great job. But I know he 
will do a great job for our country in his new capacity as 
well. So good luck, buddy.
    Today we have some witnesses that are very familiar to this 
committee, and do a great job for our country: General John 
``Jay'' Raymond, Commander, Air Force Space Command; Lieutenant 
General David Buck, Commander, Joint Functional Component 
Command for Space [JFCC Space]; Ms. Betty Sapp, Director of 
National Reconnaissance Office; Robert Cardillo, Director of 
National Geospatial-Intelligence Agency; and Mr. John Hill, 
Acting Deputy Assistant Secretary of Defense for Space Policy.
    After we finish this unclassified testimony and questions 
and answers, we will adjourn to a closed session to continue 
our oversight in an appropriately secure fashion.
    In Secretary Mattis' confirmation hearing in front of 
Senate earlier this year, his official testimony stated, quote, 
``While our military maintains capable air, land, and sea 
forces, the cyber and space domains now demand an increasing 
share of attention and investment,'' close quote. And I fully 
agree with the Secretary's statement.
    Our military and intelligence leaders have been clear in 
their warnings, some going back many years, that our use of 
space could be taken away from us in the next military 
conflict. However, we have not moved with the conviction and 
urgency to respond to these warnings. And this has left us with 
a growing crisis to confront in outer space.
    While I have the full faith and confidence in each of our 
expert witnesses here today, I do not have faith in the tangled 
bureaucratic structure they must work with. Meanwhile, China, 
for example, is advancing rapidly in space and counterspace and 
has established a new military organization to focus its space, 
cyber, and electronic warfare capabilities. Dr. John Hamre, 
former Deputy Secretary of Defense, eloquently stated in an 
earlier hearing to this subcommittee, quote, ``We are not well 
organized to deal with the new challenges we face in space. The 
old structure may have been sufficient when space was an 
uncontested area of operations. That time has passed.'' Again, 
I couldn't agree more.
    Ladies and gentlemen, now is the least capable our 
adversaries will be in space. And now is the time for reform, 
even if it is disruptive today.
    With that, I look forward to hearing all your perspectives 
on space priorities and posture. I thank all of you for being 
here and working with us on this important topic.
    I now recognize my friend and colleague from Tennessee, the 
ranking member, Mr. Jim Cooper.
    [The prepared statement of Mr. Rogers can be found in the 
Appendix on page 29.]

STATEMENT OF HON. JIM COOPER, A REPRESENTATIVE FROM TENNESSEE, 
        RANKING MEMBER, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Cooper. Thank you, Mr. Chairman. I would like to add my 
note of congratulations to Steve, well done. And I thank you 
for this hearing, Mr. Chairman. I appreciate especially your 
focus on strengthening America's space capabilities. There is 
no more important goal.
    There are many issues before us and before the Air Force in 
particular, but I am glad we are addressing them in a 
bipartisan, joint, and substantive fashion. I look forward to 
the testimony of the witnesses.
    Mr. Rogers. Great. I now recognize our witnesses. The 
witnesses were asked to summarize. Their prepared statements 
will be submitted for the record. Without objection, so 
ordered. If you could take your statements and keep them to 5 
minutes or less so we can get to questions, that would be 
awesome.
    General Raymond, you are recognized.

 STATEMENT OF GEN JOHN W. RAYMOND, USAF, COMMANDER, AIR FORCE 
                         SPACE COMMAND

    General Raymond. Thank you, Chairman Rogers, Ranking Member 
Cooper. Let me also pile on and say congratulations to Steve 
Kitay. We look forward to having you sitting here next to us 
next year.
    Distinguished members of the subcommittee, thank you for 
the opportunity to appear before you as the commander of Air 
Force Space Command. It is my distinct privilege to lead and 
represent nearly 36,000 professional and dedicated airmen 
providing resilient and affordable space and cyberspace 
capabilities for the joint force and our Nation. It is also a 
distinct privilege to testify with my friends and panel of 
experts and close partners.
    This is a very exciting year for both the Air Force and the 
Air Force Space Command. In 2017, September of 2017, our Air 
Force celebrates our 70th birthday, and Air Force Space Command 
celebrates a 35th birthday, although, as an Air Force, we have 
been involved in space since 1954 and since the beginning.
    We have come a long way and done a remarkable job 
integrating space capabilities into joint warfighting. Today, 
there is nothing we do, and I repeat, nothing we do as a joint 
force that isn't enabled by space. Integration has been our 
strength. Nevertheless, we find ourselves at the intersection 
of high reliance and vulnerability in the space domain. Today, 
in no uncertain terms, space is a warfighting domain, just like 
air, land, and sea. Potential adversaries are developing 
capabilities to deny us access to and the benefits of the space 
domain. Let me be very clear, we do not want a conflict that 
extends into space, but one way to keep that from happening is 
to make sure that we are prepared for it and be able to fight 
and win that conflict if it were to occur. I think it shouldn't 
be lost on anybody that our space program is the envy of the 
world.
    My near-term priorities are fourfold. First, in partnership 
with Betty Sapp, is to operationalize the National Space 
Defense Center, and provide them with command and control 
capability necessary to operate in a contested domain.
    Secondly, we must improve space situational awareness, 
transforming from a cataloging focus to a warfighting focus 
required of this domain.
    Third, we need to transition our space architecture into a 
defendable space architecture to provide resilient and 
defendable capabilities for the current strategic environment 
that we face.
    And finally, we need to continue to professionally develop 
Air Force Space Command airmen.
    I thank you for your support, I thank you for your active 
leadership, and look forward to continuing to work closely with 
you in the years ahead. I also look forward to your questions.
    [The prepared statement of General Raymond can be found in 
the Appendix on page 31.]
    Mr. Rogers. General Buck.

   STATEMENT OF LT GEN DAVID J. BUCK, USAF, COMMANDER, JOINT 
 FUNCTIONAL COMPONENT COMMAND FOR SPACE, U.S. STRATEGIC COMMAND

    General Buck. Chairman Rogers, Ranking Member Cooper, and 
members of the subcommittee, thank you for your steadfast 
support of our men and women in uniform, the space enterprise, 
and this Nation.
    As this committee is well aware, we have turned an 
educational corner of sorts. It is now widely acknowledged that 
space is critical to our way of life. This, coupled with an 
understanding of the compelling and compounding threats to our 
freedom of action in space is the burning platform to evolve 
our national security space enterprise.
    We don't need a clean-slate approach, but certainly, an 
overhaul is necessary to guarantee our freedoms in, through, 
and from space.
    This is a challenge, because our national security space 
architecture and processes were largely conceived to provide 
services, or commodities, during an era when our most 
significant co-orbital threat was debris. Given the emerging 
threats, we no longer approach space with simply a service 
provider mentality. Our foremost responsibility is to gain and 
maintain space superiority. This is a prerequisite to 
protecting and defending the space joint operating area, and 
for providing space force combat engagement with the joint 
forces across the globe.
    Over the past year, we have made substantial progress, 
especially with respect to all-domain operations and our 
ability to protect and defend the national security space 
enterprise. We are better warfighters. There are, however, 
areas that require continued focus and vigilance. We must 
continue to normalize operations across the enterprise. This 
includes space situational awareness, as well as improving 
foundational intelligence, and the ability to provide robust 
indications and warning. We also must continue the full-court 
press to deliver a next generation battle space awareness and 
command and control capability. At the same time, we must 
review and update the associated authorities and rules of 
engagement for operations in space. And we must continue, we 
must continue to push on fielding required capabilities on 
operationally relevant timelines.
    Looking forward, we are focused on maintaining freedom of 
action in space. It is an imperative of our joint force. As a 
learning organization, we will continue to review and mature 
our approaches and organizational structures. We can accept no 
less, because the speed and complexity of future fights demands 
operationally agile organizations.
    Every challenge is an opportunity, and we have many 
opportunities in space. Freedom of action in space is not a 
birthright; it must be secured, and it must be preserved. This 
requires constant vigilance, strong partnerships, and active 
participation. I thank the committee for your leadership and 
for your advocacy. I look forward to our continued partnership.
    [The prepared statement of General Buck can be found in the 
Appendix on page 50.]
    Mr. Rogers. I thank you, General Buck. Ms. Sapp you are 
recognized for 5 minutes.

  STATEMENT OF BETTY SAPP, DIRECTOR, NATIONAL RECONNAISSANCE 
                             OFFICE

    Ms. Sapp. Thank you, Chairman Rogers, Ranking Member 
Cooper, and distinguished members of the subcommittee. Thank 
you for the opportunity to be here on behalf of the National 
Reconnaissance Office, or NRO. The NRO is responsible for 
developing, acquiring, launching, and operating the Nation's 
overhead intelligence, surveillance, and reconnaissance 
architecture. We are the foundation of the U.S. global 
situational awareness. We contribute to global intelligence, 
military and homeland security operations, while simultaneously 
assisting with the formation of national policy, and achieving 
diplomatic goals. We provide direct support to U.S. 
warfighters, help protect U.S. borders, and contribute 
significantly to the fight against ISIS [Islamic State of Iraq 
and Syria] and other counterterrorism operations worldwide.
    The foundation of NRO mission capabilities and 
contributions are our people. Our people are behind every 
mission success, and enable the direct support we provide to 
the combatant commands, their service and functional 
components, and deployed tactical units. The NRO workforce is 
not just dedicated to mission, but talented and empowered to 
innovate.
    We instill a culture of innovation and risk tolerance in 
everything we do. NRO innovation comes in many forms to include 
using existing capabilities differently, developing new apps 
for our space and ground systems, and developing the new 
capabilities critical to closing intelligence gaps.
    We are also working with our mission partners to ensure we 
fully leverage commercial products, services, and capabilities. 
The NRO is a small, flat, end-to-end organization, fully 
capable of successfully delivering an increasingly capable, 
integrated, resilient, and affordable architecture.
    We have control of every function required, from the R&D 
[research and development] that enables us to stay ahead of 
targets and threats, to the acquisition of new space and ground 
capability, to the operations required to use, adapt, and 
upgrade those capabilities to respond to new and changing 
mission imperatives in the field.
    We are performing extremely well. All 15 of our major 
system acquisitions are ``green,'' meaning they are meeting or 
exceeding cost, schedule, and performance metrics. This year, 
we received our eighth consecutive clean financial management 
audit, demonstrating our ability to properly manage all 
resources entrusted to us. And we continue to improve our 
collection capabilities and the resiliency to stay ahead of 
targets and threats. But staying ahead of the adversaries who 
threaten our space capabilities is a challenge. Those 
adversaries are making space a priority, investing heavily and 
accepting the risk necessary for rapid progress.
    The U.S. has not been keeping pace. I believe we have not 
made the investment that would indicate space is a priority or 
fundamental to the U.S. Our requirements budget and acquisition 
processes are disconnected, and none of them moves quickly. 
Failure is not well-tolerated, even in the research and 
development activities required to keep our space capabilities 
relevant and vital, or to improve their resiliency.
    National security space is a team sport, and everyone on 
the team, those in the executive branch, and in the Congress, 
must do all they can to advance its capabilities and improve 
its resilience to threats. We must have processes that are 
integrated, that move faster, and that demonstrate greater risk 
tolerance. We must recommit to space as a national priority and 
imperative.
    This committee has been out in front trying to drive the 
changes required. The NRO is inspired by this committee's 
efforts to address the barriers to change and the pace of 
change required to advance national security space. The NRO, 
and the broader national space community, have people with the 
talent, commitment, and passion necessary to take us forward. 
We only need to empower and enable them to succeed.
    Mr. Chairman and members of the subcommittee, thank you for 
your continued support of the National Reconnaissance Office, 
its people, and its mission.
    [The prepared statement of Ms. Sapp can be found in the 
Appendix on page 63.]
    Mr. Rogers. Thank you, Ms. Sapp. The chair now recognizes 
Mr. Cardillo for 5 minutes.

  STATEMENT OF ROBERT CARDILLO, DIRECTOR, NATIONAL GEOSPATIAL-
                      INTELLIGENCE AGENCY

    Mr. Cardillo. Thank you, Chairman Rogers, Ranking Member 
Cooper, and members of the committee. I, too, am pleased to 
testify before you today with my distinguished colleagues as a 
member of the team of national security professionals.
    NGA is the primary provider of geospatial intelligence, or 
GEOINT, for the Department of Defense and the intelligence 
community. Our support to military services, combatant 
commands, and warfighters includes safety in navigation, 
precise targeting, disaster recovery, and tailored intelligence 
support, just to name a few. I also have the job of being the 
Functional Manager for the National System of Geospatial 
Intelligence. And I strengthen the overall enterprise by 
ensuring that those combatant command needs are met through 
future overhead architectures. More specifically, the GEOINT 
enterprise capability document which serves as a framework to 
translate those needs into the key enterprise functions and 
capabilities that our analysts require to resolve our most 
vexing intelligence challenges.
    Now, global persistent GEOINT provides an architecture to 
monitor these intelligence challenges, enables NGA to provide 
national and tactical leaders the intelligence and early 
warning needed for decision advantage. It leverages the 
exquisite capabilities of the National Reconnaissance Office to 
allow the combatant commands to hold strategic targets at risk. 
It also integrates the capabilities of our international 
partners to fill gaps in our enterprise.
    Now, the explosion of data has driven the GEOINT discipline 
beyond the limits of human interpretation and explanation. By 
combining all of the data now available to us, and with the use 
of algorithms, automated processing, machine-to-machine 
learning, and artificial intelligence, we believe we can 
automate as much as 75 percent or more of the rote tasks we 
perform today. This will free our analysts to spend more time 
and focus on those hard intelligence problems. Getting to that 
point will require significant investments in our IT 
[information technology] architecture, as well as in our 
research and development.
    Not only is that data exploding, conservative estimates 
over the next 10 years predict that over 9,000 commercial 
satellites will be launched compared to fewer than 1,500 in the 
last 10 years. Accordingly, NGA will partner with the NRO to 
engage with and access the most mature of these new space via 
the commercial GEOINT activity. Through it, we will identify 
and evaluate emerging commercial GEOINT data and services 
against those needs that we capture and maintain.
    In closing, the national security space enterprise is vital 
to NGA's ability to provide advantage to warfighter commanders 
and policymakers, to give them the decision space and the 
operational time they need to do their job. Timely, relevant, 
and accurate GEOINT is only possible through the combined 
efforts of the IC [intelligence community], the Department of 
Defense, emerging industry, and allied partners.
    I am happy to address any questions you might have and I am 
pleased to be here. Thank you.
    [The prepared statement of Mr. Cardillo can be found in the 
Appendix on page 70.]
    Mr. Rogers. Thank you, Mr. Cardillo. Mr. Hill, you are 
recognized for 5 minutes.

  STATEMENT OF JOHN D. HILL, PERFORMING THE DUTIES OF DEPUTY 
ASSISTANT SECRETARY OF DEFENSE FOR SPACE POLICY, OFFICE OF THE 
             UNDER SECRETARY OF DEFENSE FOR POLICY

    Mr. Hill. Thank you, Chairman Rogers, Ranking Member 
Cooper, and distinguished members of the committee, thank you 
for the opportunity to testify today here with my distinguished 
colleagues.
    In the months ahead, understanding and addressing the 
implications of the growing threats in space is critical as 
this administration prepares the President's new national 
security strategy, and the national defense strategy, and as 
Congress carries out its responsibilities for oversight and 
funding of the programs and activities necessary to realize 
those strategies.
    No less important, strategic success requires increased 
resources, an end to defense budget caps, an end to the years-
long pattern of extended continuing resolutions, and a return 
to strategy-focused resourcing. Today, we consider space 
security in an era when Russia and China present anti-access/
area denial [A2/AD] strategies intended to prevent or counter 
U.S. intervention in crises or conflicts, and to undercut our 
ability to secure our interests.
    Diplomatic solutions remain our preferred option to 
settling the differences that divide nations. But American 
diplomatic influence rests on the credibility and capability of 
our military power, which is fundamental to deterrence and to 
the confidence of our allies in knowing that they do not have 
to submit to the coercive pressures of large and powerful 
neighbors.
    America's space posture underwrites deterrence by enabling 
the U.S. military to project power globally, respond to crises 
rapidly, strike swiftly and precisely, and command forces in 
multiple theaters simultaneously. Potential adversaries know 
well our reliance on space systems that many perceive as 
vulnerable, leading to an unstable situation in which some have 
concluded that in times of conflict, attacking U.S. military 
space systems may make an irresistible and most tempting 
choice.
    Disabusing them of such misguided notions is a strategic 
priority. That is why, in the Department of Defense, we are 
making such a concerted effort to strengthen the mission 
assurance of our space capabilities, and to deny aggressors the 
benefits of attacks in space. We are changing our investments 
and operations, and increasing our partnering with commercial 
entities and allies. More importantly, we are changing 
attitudes by recognizing that space is a warfighting domain and 
preparing ourselves to deter conflict in space and prevail if 
deterrence fails.
    Finally, I want to recognize this committee's priority on 
strengthening national security space organization, management, 
and leadership. This question has the attention of the 
Secretary and Deputy Secretary of Defense. They expect to be 
presented with sound analysis and a full range of options, and 
they mean for us to meet the deadline of reporting to Congress 
this June.
    In conclusion, I want to thank this committee for keeping 
the challenges of securing space before the public. I look 
forward to working together to ensure that we have the right 
strategy and resources, and the necessary programs, posture, 
and organizational structures to sustain deterrence, to prevail 
if deterrence fails, and to increase the incentives nations 
have to settling their differences by peaceful means. Thank 
you.
    And I would add, as the person acting in the job that Mr. 
Kitay will be doing, nobody is happier to have him come in than 
I am. Thank you.
    [The prepared statement of Mr. Hill can be found in the 
Appendix on page 79.]
    Mr. Rogers. I hear you. Thank you, Mr. Hill.
    I recognize myself first for questions. This will be a 
question for anybody who is willing to swing at it. We passed a 
law about 10 years ago that directed how the Operationally 
Responsive Space [ORS] Office would be run. And I have heard 
instead of being streamlined, ORS options are still forced to 
go through the traditional Pentagon processes, including the 
Defense Space Council [DSC]. So rather than a small number of 
decisionmakers focused on moving fast with respect to 
operationally responsive requirements and acquisition, the 
recent decision meeting of the ORS program included over 60 
attendees, with 54 more than we had envisioned. To me, this 
example is indicative of the extremely fragmented space 
organization and bureaucratic kudzu--my word--you have got to 
be from the south to know what kudzu is--that comes in and 
strangles out the life of the DOD space programs. It is a 
situation where everyone can say ``no,'' but no one can say 
``yes.''
    So how do we fix that? General Raymond, swing first.
    General Raymond. I will swing first. I am familiar with 
kudzu.
    Mr. Rogers. You are recognized.
    General Raymond. Chairman, thanks for the question. Sixty 
people were not involved in that decision. As you stated, the 
ORS EXCOM [executive committee] law is pretty clear. There are 
six ORS EXCOM members by law. The PDSA [Principal DOD Space 
Advisor] has the ability to designate others that are critical 
to that decision.
    In this case, I wasn't in the room, but my understanding is 
that those six were the voting members, plus two or three 
others, that was it. It is under the framework of a larger DSC, 
but the decisionmakers were the eight- or nine-person level, 
those were the voting members and the decision actually went 
pretty quick.
    Mr. Rogers. Well, I understand that there were six voting 
members, but weren't there 60 people in the room?
    General Raymond. Yes, there were 60 people in the room, but 
there is also some goodness in transparency of having others 
there. They didn't vote, they didn't influence the decision, 
they were there. I will tell you, after those folks make that 
decision, a lot of those folks then have to be the ones that go 
execute that decision to make sure they have a common 
understanding. So it was a very small number of folks that was 
consistent with the legislation that was passed for a small, 
tight decision-making process for ORS EXCOM. And I am pretty 
comfortable that it was a pretty rapid decision.
    Mr. Rogers. So six people were the decisionmakers?
    General Raymond. As I mentioned to you, there were six that 
were by law, and then there was a couple others that added by 
the----
    Mr. Rogers. So there were eight people?
    General Raymond. I wasn't in the room, but it was small 
numbers.
    Mr. Rogers. Okay. Six to eight people?
    Betty Sapp, do you have to have six to eight people to make 
decisions on acquisition process programs with your 
organization?
    Ms. Sapp. I have at least two people to make decisions, one 
on the IC side and one on the DOD side. There are a lot of 
people, as you mentioned, who review the package of 
documentation for sufficiency before it gets to those 
decisionmakers. And, again, there is a whole lot of staff on 
the IC side, there is a whole lot of staff on the DOD side. So 
a lot of people look at it before it even gets on the calendar 
for the decisionmakers.
    Mr. Rogers. The people that look at it, do they have the 
authority to stop it or say no?
    Ms. Sapp. Yeah, the authority to stall it.
    Mr. Rogers. Is that the case with the ORS, General Raymond? 
Those other people, can they slow it down or stop it?
    General Raymond. My understanding is they do not have a 
vote in that process. They have the--as by law, the----
    Mr. Rogers. How about the lead-up process to get to that 
room, before it gets to that room for decisionmaking.
    General Raymond. The PDSA schedules the Defense Space 
Council, and it is done relatively routinely, and it was done 
pretty quickly in this process. I didn't sense a slowdown on 
this.
    Mr. Rogers. Anybody else want a swing at it? All right.
    Mr. Hill. Chairman, I will give you a comment as one of 
those nonvoting people who was in the room.
    Mr. Rogers. Okay.
    Mr. Hill. What the Principal DOD Space Advisor also did 
was, she used that to tee up a decision that is also necessary, 
which is the long-term solution for weather--so ORS is an 
important gap in the ORS program that was before us. An 
important gap [inaudible] that General Hyten had put forward 
and had been brought in the Air Force. That went pretty 
quickly. The discussion also then said to everybody are we also 
moving on the requirements process for the longer term, which 
she used that effectively in that respect.
    Mr. Rogers. Great. In the testimony to the SASC [Senate 
Armed Services Committee] earlier this week, General Goldfein 
talked about the need to integrate space. The Joint Staff is 
who is responsible for overall space integration forces. On 
that Joint Staff, there are 11 Air Force general officers. Of 
those 11 general officers, how many space professionals are 
included? Anybody want to guess? It would be zero. Do you know 
how many are pilots? That would be nine. If we look at the 
specific combatant command, according to EUCOM [U.S. European 
Command] there are over 28,000 Air Force personnel supporting 
EUCOM. And how many of those 28,000 are dedicated to work space 
issues? That would be two.
    We do need to integrate space. I completely agree with 
General Goldfein on that with the air, and our land and sea, 
and cyber obligations. It is what combatant commanders do. But 
they are also designed to fight and win wars in a joint manner.
    So General Buck, how do we integrate space capabilities 
better into our war plans and combatant commands? To me, that 
starts with people, and I am interested in your perspective.
    General Buck. Thank you. I agree with you. I would like to 
get more space officers, general officers on the Joint Staff. 
But the chief's very focused on developing joint officers, and 
I think that is a focus area for us as well. When we look 
across the enterprise, you look at United States Strategic 
Command, we have two space officers working in joint jobs at 
U.S. Strategic Command. I am in a joint billet myself as 
commander of JFCC Space.
    The way we--I serve as--my JSpOC [Joint Space] Operations 
Center at Vandenberg, serves as space coordinating authority 
for the combatant command, so they have reach-back authority 
back to get those space effects out to theater.
    As far as developing joint operations, General Raymond, I 
think we are doing a pretty good job, and that is a focus area 
as we go forward.
    General Raymond. I would say, Chairman Rogers, you bring up 
a great point. The challenges that we face as a Nation today 
are transregional, if not global, multidomain and 
multifunctional. They are not confined to a line on the map. It 
is not just one geographic commander's responsibility; it is 
pretty much all the combatant commanders' responsibility. Each 
combatant commander has what is called a coordinating authority 
for space. Each of those combatant commanders has delegated 
that authority down to the CFACCs [combined force air component 
commanders], or the air component of that. In the air 
components around the globe, we probably have a senior space 
officer called the director of space forces. We have--and 
General Goldfein testified to this. He was the space 
coordinating authority at CENTCOM [U.S. Central Command] at the 
time. We have a senior space officer called the director of 
space forces. He has a staff of about five. And then in every 
single division in the AOC [air operations center], we have 
space professionals embedded in those divisions.
    So what we have done is prioritized putting the weight of 
effort in those AOCs where the combatant commander has 
designated that authority, too. And that is where we do that 
multidomain integration work, that is the hub of that 
multidomain integration work.
    Mr. Rogers. You mentioned that General Goldfein, at one 
time, was the space advisor?
    General Raymond. No, sir, he was the CFACC, the Air Force's 
component commander for CENTCOM. And in that role, the CENTCOM 
commander delegates to him the authority called the space 
coordinating authority. And his AOC, where he operated out of, 
is that multidomain center that integrates air, space, and 
cyber into that fight, and that is where we focus a significant 
portion of our space operations.
    Mr. Rogers. General Buck, you were going to say something.
    General Buck. I am sorry to interrupt. I will say that 
probably in CENTCOM, we have the preponderance of space 
officers in CENTCOM right now. That is our weight of effort.
    And if you look at CENTCOM right now, in the director of 
space force office we probably have 8, maybe 10 space officers 
in the director of space force offices there. But what is a 
real win for us, when not just we have a director of space 
force office there, but when we embed space officers in ISRD 
[intelligence, surveillance, and reconnaissance division] and 
COD [combat operations division] and CPD [combat planning 
division], that is a win; when we start not being an add-on, 
but we are baked into the processes over there. And I think we 
are doing better. Our focus right now is on CENTCOM, but I will 
tell you, sir, we are getting better in PACOM [U.S. Pacific 
Command] and EUCOM across the board.
    Mr. Rogers. Great. The chair recognizes the ranking member 
for any questions he may have.
    Mr. Cooper. Thank you, Mr. Chairman. I would like to focus 
in my questioning on how crowded space is and how it is going 
to get a lot more crowded. Mr. Cardillo mentioned in his 
testimony on page 5 that in the last 10 years, we saw something 
like 1,500 satellites go up, but in the next 10 years, 
something like 9,000. That is 2\1/2\ satellites a day going up 
in space. That is amazing. But we have seen launches like in 
India recently that they put up 100 sats [satellites] just in 
one launch. So as space gets more crowded, it gets more 
treacherous. General Buck mentioned in his testimony, it used 
to be that the main threat we faced was debris; now we face 
traffic, we may face threats. So I am particularly interested 
in this idea of the nonmilitary space traffic management. 
Again, I understand, General Raymond, you embarked on a pilot 
program with the FAA [Federal Aviation Administration] on that?
    General Raymond. Thank you, Ranking Member Cooper. We have. 
As I testified before to this panel, I share your concern; 
space is clearly congested and contested, but in this case, on 
the congested side. General Buck and his team track 23,000 
objects a day, take about 400,000 observations a day to keep 
track of all that, act as the space traffic control for the 
world and keeps the domain safe for all.
    It is very important, and I think General Buck will agree 
with me, I will pass it to him here, but it is very important, 
for national security purposes, that we have the ability to 
have radars, to task those radars, to collect the data for 
those radars, to be able to maintain the awareness that we need 
for that domain. However, I don't think we need to be the 
organization that makes the notifications around the world and 
acts as the traffic cop.
    So I have met with the FAA administrator a couple months 
ago, and asked if he would join us in developing a pilot 
program, if you will, to see if we could inform this going 
forward. General Buck has the lead on pulling that together. 
And, David, if you want to give an update on where we are.
    General Buck. Thank you, General Raymond.
    I am really proud of the team and how far we have come with 
the FAA. I have talked to Dr. Nield directly, and we have 
agreed jointly to begin that pilot program. I expect that pilot 
program to begin this summer, probably August timeframe.
    I do agree with General Raymond, there are some aspects of 
the space traffic management that are not military, inherently 
military. And we could load-shed them to a civil agency. 
Things--safety of flight, debris management, norms of behavior. 
I don't think those are inherently military. I think it is 
important to make a distinction, too, between what is space 
traffic management and what is space situational awareness. For 
me, as a warfighter, I need space situational awareness; I need 
to know what an object is, where it is going, what its 
capabilities are, what its vulnerabilities are, those types of 
things.
    What I don't need to be doing, I don't think, are things 
like notifications for conjunction assessment and norms of 
behavior. And I think that is better suited for a civil agency, 
and I think that is where we are going, sir.
    Mr. Cooper. Let me add some color to your remarks. General 
Raymond said in a very calm fashion, we keep space safe, or 
something like that. We are protecting other countries' $1 
billion satellites from a piece of shrapnel that might be 
traveling at 33,000 miles an hour, but could destroy the 
machine, and for that, we get not even a thank-you note. You 
know, it is kind of amazing that we provide this magnificent 
worldwide service and little appreciation. Plus, as you said, 
when we consider load-shedding, it is a burden on our folks 
that doesn't necessarily need to be borne by them.
    General Raymond. Other people--not all countries--some 
countries do send us thank-you notes, do talk a lot more to us, 
others don't. We are really doing it because we want to keep 
the space domain safe for all to use, including us. And so that 
is the emphasis behind that. We need to be able to operate in 
space, and it is our way of helping to make sure that we can do 
that.
    Mr. Cooper. But it is also an essential truth-telling 
function. Like, if you look at the downing of the Malaysian 
airliner over the Ukraine, there was worldwide debate and 
dispute over what caused that plane to crash. And even though 
we have excellent air traffic control in most parts of the 
world, there was still a significant dispute. And when it comes 
to separating news from fake news and propaganda, you know, I 
think in the space domain, it would be nice if we established a 
sort of gold standard of truth so we would know if it was 
debris, we would know if it was something less benign than 
that. So I am worried that while I hope the pilot program gets 
off to a good start this summer, I hope it will soon be able to 
establish a standard, but even with air traffic, we are having 
difficulty isolating causes when it should be, with all of our 
plane radars and things like that, an easier thing to prove 
than it is in space. So I hope we will get on that task.
    Thank you, Mr. Chairman.
    Mr. Rogers. The chair now recognizes Mr. Lamborn for any 
questions he may have.
    Mr. Lamborn. I thank you, Mr. Chairman. And thank you all 
for the great service that you provide for our country. And 
General Raymond, I am going to follow up on a question we 
touched on in our conversation yesterday. With BMC2 [battle 
management command and control], I remain concerned about the 
prospect of repeating the same mistakes we made with JMS [Joint 
Space Operations Center Mission System], whereby lab prototypes 
and custom government development efforts were prioritized over 
utilizing proven commercial capabilities, which, unfortunately, 
led to huge scheduling and cost overruns. Can I get your 
commitment that you will prioritize the utilization of 
commercial capabilities to the maximum extent practicable 
first, and then fill in with government development for the 
truly unique military requirements that don't reside in the 
commercial marketplace?
    General Raymond. I am a big proponent of commercial data. I 
have said for many years in front of this committee that we 
need all sources of data. We need data from commercial, all the 
way up to the high-end intelligence data. And on what our 
strategy going forward on the battle management command and 
control system that you reference is to do just that, is to use 
commercial companies in a consortium to help us develop those 
requirements.
    It is analogous to the iPhone. You've got the iPhone and 
then you have apps. And we want to have open standards and open 
consortium so all players can play in feeding us that data and 
to do so quickly. We have to get it on the floor. We have to 
get it in the National Space Defense Center as quick as we 
possibly can.
    Therefore, what we did was, we switched the program, and I 
gave that to the Air Force Rapid Capabilities Office, who has 
already done this. They have already taken the capability, 
built an open-architected system, has a consortium approach, 
and it has worked very well. So we are fast-forwarding this 
capability by giving it to the folks that can move rapidly, 
that have already done it in another capability in the air 
domain. And what this will allow us to do is also get at that 
multidomain integration.
    So the whole purpose of this program going forward is to 
enable a lot of commercial data and other source data to be 
integrated to give General Buck the data that he needs to have 
to do the mission that he is responsible for.
    General Buck. If I could just make a comment along the same 
lines. Ranking Member Cooper stressed the importance of domain 
awareness. It is really important that we ingest non-
traditional data into our space surveillance network as well. 
That is a hard thing to do, but we are making progress. And I 
think this summer some time, we are going to bring out a 
capability called the non-traditional data preprocessor that 
will begin to allow ingestion of commercial data into our space 
surveillance network. So I think that is a move in the right 
direction for domain awareness and non-traditional ingestion, 
like commercial sensors, if you will.
    Mr. Lamborn. Thank you both.
    Changing gears, I have heard some rumors about insufficient 
funding for GPS [Global Positioning System] III in the fiscal 
year 2018 request. What are we doing to keep this important 
program on track?
    General Raymond. So Congressman, we have not submitted the 
2018 budget going forward. We have, in my opinion, a pretty 
healthy GPS constellation in that we have got 31 operational 
satellites on orbit. We actually have 37 on orbit, 31 are 
operational. We are moving forward with the [GPS] OCX [Next 
Generation Operational Control System] program. Although that, 
as many folks have testified previously, would not be the model 
program that we would hold up as the standard. And we are 
clearly not out of the woods yet. And I won't be comfortable 
until that capability is operational on the OPS [operations] 
floor for General Buck's team to be able to operate.
    So I am pretty comfortable where we are with a relatively 
healthy GPS constellation that is on orbit and progress being 
made on the ground control----
    Mr. Lamborn. What does that mean for the budget for next 
year?
    General Raymond. The budget is going to be released next 
week. And so, I would prefer not to speculate on what might be 
released in the budget until that gets released.
    Mr. Lamborn. Okay. Ms. Sapp, in 40 seconds, I am going to 
give you a huge question, but you referred to how we don't have 
the commitment we need for space going forward. What can we do 
better as a country to show that commitment and that resolve?
    Ms. Sapp. I think we really need help on the budget side, 
not just investment in space, but the ability to use the 
investment. As we are fielding new things to improve our 
resiliency, it was very hard to move ahead with new things 
under our continuing resolution. It is not allowed. So that is 
just slowing the pace of progress, even after we get it out of 
the executive branch, which is no mean feat. So you could help 
a lot on that front.
    Mr. Lamborn. Thank you so much.
    General Raymond. I would echo that as well on behalf of Air 
Force Space Command.
    Mr. Lamborn. Thank you.
    Mr. Rogers. The chair now recognizes the gentleman from 
California, Mr. Garamendi, for any questions he may have.
    Mr. Garamendi. I am going to forego the usual GPS backup. I 
assume that is moving along, and if not, there will be a piece 
of legislation that will move it along perhaps even faster.
    Not exactly sure how far to go with this. I represent Beale 
Air Force Base. There are certain activities going on, I am not 
sure we should be talking about them here. But I would like to 
take that up, because I think it integrates with most of what 
is being discussed here.
    Just in general, the integration of information from a 
variety of sources, I think this is something that is happening 
just in general. Your views on that progress?
    General Raymond. In general, I think it is going really 
well. And in fact, as largely the model that I use to make the 
decision to go with the approach that we talked about in the 
battle management command and control conversation we just had 
with Congressman Lamborn. I would be more than happy to talk 
more in the closed session with you.
    Mr. Garamendi. I think I will let it go at that point. Oh, 
no, I have one more. We picked this up yesterday in going on--a 
plan for the next decade of critical assets that need to be 
developed and deployed, and the approximate cost of those. I 
think we need to have a long-term vision here about where we 
are going to deploy perhaps the most essential asset of all, 
which is our financial resources. I have not seen such a 
display of those things that we--that you, the military in 
general, and certainly the Air Force specifically in the space 
area, need, want, must have. I think it is really essential 
that we look at that. There will be insufficient money for 
everything, particularly if the tax cuts are real.
    And, so, we are going to need to make some tough decisions 
about prioritization, and that means the long view, 10 years 
minimum, so that we can say, Okay, these things will be funded, 
those are not, or we are going to fund all of it and not fund 
something else. So Mr. Chairman, if we could move in that 
direction so we can have that long-term vision.
    General Raymond. Could I--I would welcome an opportunity to 
come back to you and walk you through the Space Enterprise 
Vision. That is our longer-term vision for space. It is done in 
very close partnership, it is an integrated vision with the 
NRO. I want to take a moment--I do this every time I can, and I 
am not saying it because Betty Sapp is here--Betty Sapp is a 
huge partner for us.
    Mr. Garamendi. Two minutes, eight seconds. Go for it.
    General Raymond. But I would be more than welcome to come 
back and walk you through that vision, walk you through the 
priorities as we see them and inform you on that.
    Mr. Garamendi. We heard some of this yesterday from General 
Goldfein about different directions, or at least a different 
set of priorities for the future. Much of it involved your 
work, so I wanted to get a fix on that and other things that we 
may not, but is a priority. Thank you for that.
    I didn't mean to cut you off, I really meant you had 2 
minutes and 8 seconds to answer.
    General Raymond. No, I didn't want to take your time. I 
wanted to see if you had more questions.
    Mr. Garamendi. Thank you.
    Mr. Rogers. The chair recognizes Mr. Bridenstine for 5 
minutes.
    Mr. Bridenstine. Thank you, Mr. Chairman. When you think 
about the consortium, General Raymond, that you talked about 
for the BMC2 piece of the National Space Defense Center. That 
consortium, of course, is trying to rapidly develop a 
capability where we are currently maybe lagging behind. And, of 
course, I think everybody on this committee fully supports that 
effort.
    In the meantime, is there an SSA [space situational 
awareness] gap that needs to be filled that could be--
commercial could help with? And maybe General Buck, if you 
would like to answer that as well.
    General Buck. Well, thank you, sir. Good seeing you again.
    Mr. Bridenstine. Always.
    General Buck. I mentioned a non-traditional data 
preprocessor. I think that is a step in the right direction. I 
think you will agree with me, the ability to ingest some of 
those non-tradi--that helps. What also we have is, we have SBSS 
[Space Based Space Surveillance] that is online--on orbit right 
now, that is being extended. The life on that is extended past 
its--I think the dates are classified, but that is going to be 
extended, and plus ORS-5 [Operationally Responsive Space 5] 
gives us, provides us that gap-filler capability as well. So I 
think those three things together give us the capability to 
fulfill that gap.
    General Raymond. Just as a general statement, more data is 
better, from a South Carolina kudzu guy. More data is better. 
We need data across the full spectrum, and we do get that 
across the full spectrum. The other thing that we have done is 
develop partnerships, and we have got--don't quote me on the 
numbers--over 50 or 60 SSA sharing agreements with partners. It 
is largely one-way sharing, but there are two-way sharing 
pieces. I would like to make that stronger. When we get the new 
JMS system up with more capacity and more ability to ingest 
that data, that will take off. But more is better.
    Mr. Bridenstine. More is better. I would like to maybe 
continue on what Ranking Member Cooper was talking about, this 
effort to create a partnership with the FAA for space 
situational awareness specifically. Can you share with us how 
that is being funded? And is it coming out of your budget? Is 
it coming out of their budget? Is there something Congress 
should do here to help?
    General Buck. My understanding is there is going to be a 
fiscal year 2018 budget request coming out of the FAA. But I am 
hesitant to say that because I am getting in the FAA's lane a 
little bit. But I think there is a funding request for 2018 
that is coming out of the FAA, sir, but I don't have the 
specifics on that.
    Mr. Bridenstine. That is good to hear. Again, I know that 
is not your lane. I don't want to get you in trouble, but I 
think this committee would be very supportive of that 
partnership. Right now, we have heard testimony over and over 
again how we are providing free situational awareness to the 
entire world, and to all the commercial partners, and at the 
same time, the tasking that it has imposed on our warfighters 
at the JSpOC has been problematic, to the extent I hear this 
from other Members of Congress that they want to--and I heard 
you use the word ``load-shed''--they want to load-shed the 
mission, but they do not want to load-shed the funding. And I 
want everybody on this committee to know, the Air Force was 
never funded to provide space situational awareness to the 
entire world and commercial operators for free. That has not 
ever been in your mission description. And yet, that is what 
you are doing by default out of goodness of your hearts. I say 
the goodness out of your hearts, but the reality is we need to 
protect our own assets, and we all know that.
    So I just want to reiterate the fact that if we can create 
a space situational awareness environment that can be led by a 
civilian agency and free your manpower to actually be focused 
on fighting and winning wars, I think everybody on this panel 
would fully support that effort. And if we need to do an 
appropriation, I think that that is something we should be 
advocating for. So with that--go ahead.
    General Raymond. I agree with everything you said. I just 
also want to make sure that we state the criticality that the 
national security space mission needs to make sure that they 
have the space situational awareness.
    Mr. Bridenstine. Absolutely.
    General Raymond. So I agree with you that there is a role 
here for others, but it is critical to our national security 
that we also maintain the capability to have that awareness.
    Mr. Bridenstine. One hundred percent, Air Force must and 
will always do space situational awareness, and, of course, 
space defense; I 100 percent agree with that. It is the--not 
just the conjunctional analysis, but it is the warning that 
takes a lot of the manpower away from your----
    General Raymond. I am with you.
    Mr. Bridenstine. Okay. All right. With that, Mr. Chairman, 
I yield back.
    Mr. Rogers. I thank the gentleman. The chair now recognizes 
the gentleman from Washington State, Mr. Larsen, for 5 minutes.
    Mr. Larsen. Thanks, Mr. Chairman. I was going to jump in on 
this, but given that I am the ranking member of the Aviation 
Subcommittee on Transportation, and we are writing an FAA bill, 
I guess would be reluctant to have the satellite-tragedy-to-be 
tracking dumped on the FAA as well. And you are not saying that 
is happening, General Buck, you are not saying that. I am more 
concerned that Congress gets out over the tips of its skis on 
this and assigns it without money or help; rather, negotiating 
out a solution is a better idea. I think it is probably a 
better place for it, in fact. But one question I am sure the 
FAA would have, I would have as the ranking member is, What 
advantage does the FAA--what can it get from it from actually 
doing the activity as opposed to just another set of 
activities?
    General Buck. My discussions with Dr. Nield and his staff 
is that they see this as a real opportunity to do things that 
are more like air, air-centric, establishing norms of behavior, 
establish patterns for safety of flight in space. So they--not 
to speak for FAA, but my conversations with them have led me to 
believe that there is goodness, they see some goodness in this 
and they are anxious to take on specific aspects of the space 
traffic management mission.
    Mr. Larsen. Yes, that is great. I look forward to hearing 
from Dr. Nield and from you at some point. I will talk to staff 
here about getting you all together to discuss this, so we 
have, I wouldn't call it adult oversight on this, I would never 
accuse us of doing that sometimes, but certainly some 
oversight. There is a lot of debate going on right now in the 
FAA about reorganizing it overall. And tossing this into the 
mix is--it is going to get done, putting that in context of all 
the other things we are trying to do at the FAA is important. 
That is my main point. Thanks a lot. I yield back.
    Mr. Rogers. I thank the gentleman. The chair recognizes the 
gentleman from Colorado, Mr. Coffman, for 5 minutes.
    Mr. Coffman. Thank you, Mr. Chairman.
    General Raymond, the Air Force has specifically expressed 
that rocket system development is a better way to maintain our 
dominance in space. Therefore, is it still the Air Force's 
approach to fund a rocket system versus only rocket components? 
Would you tell us how you see the government collaborating with 
industry in funding the rocket system development. What is your 
vision of how industry should meet the Air Force's evaluation 
criteria?
    General Raymond. Thank you for the question.
    The Air Force's strategy remains threefold. First of all, 
it is critical that we have assured access to space. You have 
to have that. The second component is that we would like to 
support competition. We see the benefits of competition in the 
launch industry. And the third aspect of that is we would like 
to get off the RD-180 engine. That strategy remains the same. 
We are investing in launch services. We don't procure rockets, 
we procure launch services and that strategy remains the same 
and is on track.
    Mr. Coffman. Thank you, General. General Raymond, I 
understand that price is an important consideration in any 
procurement effort, but in my experience, other factors are 
also important. Given the cost of many of the payloads and how 
essential they are to our national security, can you discuss 
how the Air Force evaluates and includes, in its procurement 
decisions, qualitative items such as reliability or maintaining 
the industrial base?
    General Raymond. All that comes into play, it is not just 
cost based; it is a full-spectrum analysis. There is a pretty 
high bar that we go through for certification. We would not put 
on contract a launch if we didn't think that that was going to 
be assured to get on to space. It is a full range, and it is 
mission by mission; some missions are more complex than others.
    Mr. Coffman. Okay. Anybody on this could answer this. It is 
my understanding that the Space Based Infrared System, SBIRS, 
is the current and primary method to detect ballistic missile 
defense threats, and we are dependent on SBIRS; we have been 
dependent on SBIRS since the 1970s. Are there other systems 
envisioned to complement SBIRS? That may be for the classified 
brief. How robust are those other systems that supplement 
SBIRS? How vital is Buckley Air Force Base and SBIRS to our 
space mission?
    General Raymond. Let me just say SBIRS is a national 
security priority. It provides strategic missile warning for 
our Nation. It is probably one of the most critical systems 
that we operate. The wing up at Buckley, the 460th Space Wing 
led by Colonel Dave Miller is a premier organization. It is 
extremely critical to the success of that mission area.
    I was just up there a month or so ago and they are doing 
great work. I would--as we look to the future, we look to make 
the constellations more resilient. And I would have further 
conversations with you in the closed session to get into more 
specifics.
    Mr. Coffman. General Buck, in your testimony, you reference 
a transition of training our satellite officers from a 
technician-based focus to a warfighter-based focus. I think 
this depicts the increasing counterspace efforts of our 
adversaries and the threats they pose to our national security. 
Would you go into detail regarding the training to counter 
these threats, and the transition to a warfighter focus?
    General Buck. What I was referring to was the Space Mission 
Force construct that we have implemented in the wings. The 50th 
Space Wing is complete with a Space Mission Force transition. 
Currently the 21st Space Wing and the 50th Space Wing are 
undergoing the same transformation.
    What this does in the Space Mission Force construct for 4 
months at a time, we have space crews that are in the fight, 
they are focused on the current fight, while the other portion 
of the crew force at these wings are focused on advanced 
training, tactics, techniques, and procedure development for 
the future fight, and how they can codify those into their 
doctrine. So that is what I was referring to. And I am really 
proud of the progress they have made and the way ahead and 
General Raymond, some of that is in your OT&E [organize, train, 
and equip] lane.
    General Raymond. I would also add, it is broader than just 
space for space sake. So we are also integrating our space 
operators into joint exercises, into exercises called Red Flag, 
into war games that are joint and international. We just 
developed a Space Flag construct. So it is developing depth of 
space expertise, but then also working the multidomain 
integration piece, because this isn't space for space sake. 
This is integrating airspace and cyber for the goodness of our 
Nation and we are tackling both portions.
    Mr. Coffman. Thank you. Mr. Chairman, I yield back.
    Mr. Rogers. I thank the gentleman. The chair now recognizes 
the gentlelady from Hawaii, Ms. Hanabusa, for 5 minutes.
    Ms. Hanabusa. Thank you, Mr. Chairman.
    General Raymond, I have got to admit, when I see Air Force, 
I have been thinking about missile defense as well as your role 
in the triad system. And reading your testimony, it has raised 
a different set of questions for me. First of all, what I 
couldn't get past was this one paragraph, and if you could 
explain this to me, in your testimony at page 3, you talk about 
the first 7 months of your command, you aggressively pushed 
implementation of the--basically of the AFSPC [Air Force Space 
Command], and the National Reconnaissance--NRO Space Enterprise 
Vision with a new space warfighting construct. The warfighting 
construct is the framework for turning the Space Enterprise 
Vision into reality. What I am interested in is what is this 
warfighting construct that you are talking about in terms of 
space?
    General Raymond. Thank you, and it is nice to meet you.
    Ms. Hanabusa. It is nice to meet you.
    General Raymond. The Space Enterprise Vision is, as I 
mentioned earlier, is the vision that is a shared vision 
between us and the National Reconnaissance Office. And I will 
pass this over to Betty Sapp as well, but it is the shared 
vision for moving forward on how do you make the domain--our 
architectures more resilient to be able to survive the 
contested domain that we find today. The warfighting construct 
really talks about several things that we have talked about 
this morning. It takes that vision and builds a CONOPS [concept 
of operations]. How do we plan to operate together? And so that 
is the foundation of this. We have worked very closely with the 
NRO to develop that CONOP, so we know how we are going to work 
together.
    There is another layer, that is also the part that we just 
talked about on developing and training our forces; the Space 
Mission Force construct is part of that. There is another layer 
on it, is how do you develop the partnerships that we need, 
both interagency with our commercial partners and with our 
allies, to be able to respond to the strategic environment that 
we face today.
    Ms. Hanabusa. Before you pass me on, let me explain to you 
why, why my curiosity. Because in Mr. Hill's testimony--maybe I 
will bypass Ms. Sapp. No offense. But to ask and take it to Mr. 
Hill is, his testimony speaks about the, quote/unquote, our 
threats that we hear about all the time in here, Russia and 
China. He also speaks about A2/AD and the concerns that we 
have.
    And he says, ``Both will continue to pursue a full range of 
antisatellite weapons as a means to reduce U.S. military 
effectiveness.'' So what I thought you were going to tell me 
about the war construct was that it was in line of that--in 
other words, where we think about the oceans, the land, and so 
forth, this is another layer of, quote, war that we must be 
ready to fight.
    And I, quite candidly, I am not sure when you have Russia 
and China, they can undermine everything in terms of 
diplomatic--this nice kind of cooperation that we are all 
talking about here. I really would like to know, to the extent 
that you can tell me here today, what exactly does this all 
mean in terms of our military, and what do you need, when you 
come to see us, in order to fight that battle?
    General Raymond. First of all, we don't talk about a war in 
space. We talk about a war that extends into space. We are 
not--this isn't space for space sake.
    Ms. Hanabusa. Is that something that is unrealistic? I 
mean, is it conceivable that we could actually have, quote, 
``war in space''? In other words, could our satellites be the 
first target? Because once you take out our satellites, you 
have basically destroyed our effective communication mechanism, 
so could they not be a first line of offense against us?
    General Raymond. If you look at what some of our potential 
adversaries are talking about, they are talking about a full 
range of capabilities that range everywhere from reversible 
jamming of communication and GPS satellites like we have seen, 
all the way up to the direct ascent ASAT [antisatellite weapon] 
that we saw from China in 2007.
    Our posture is, we want to deter that. We have no interest 
in fighting that fight, and as I said, one way to do that is be 
prepared for it. The space warfighting construct develops the 
partnerships, the plans, the concept of operations, the 
training needed to be able to respond.
    Ms. Hanabusa. In the minutes, seconds that I have left, Mr. 
Hill, would you like to comment on it, because it is your 
testimony that triggered my line of----
    Mr. Hill. Certainly. And I say in my testimony, there is 
scant evidence that anybody is looking for a war in space. It 
is about the terrestrial issues that they have, political 
differences that countries have, and it is their conclusion 
that if they want a military option, they have to be able to 
act in space as well. And as you are suggesting, that could be 
early.
    Ms. Hanabusa. Thank you, Mr. Chair, I yield back.
    Mr. Rogers. I thank the gentlelady. The chair now 
recognizes the gentleman from Arizona, Mr. Franks, for 5 
minutes.
    Mr. Franks. Well, thank you, Mr. Chairman, and thank all of 
you for being here and for just all you do for the cause of 
human freedom.
    General Raymond, just a quick, direct question. Do you 
believe it is fair to say that space has been weaponized?
    General Raymond. I believe it is fair to say that space is 
a contested domain just like--and it is a warfighting domain 
just like air, land, and sea.
    Mr. Franks. Do you believe we need a more robust defensive 
space sensor layer to adequately identify the latest in 
emerging threats to our space assets?
    General Raymond. I think it is imperative that we have a 
level of domain awareness that is required to operate just like 
in any other warfighting domain.
    Mr. Franks. Should this U.S. space--should we treat space 
as a warfighting domain?
    General Raymond. Space is a warfighting domain just like 
air, land, and sea, and we need to treat it that way.
    Mr. Franks. Yeah. Should the U.S. develop defensive 
capabilities to counter kinetic attacks against our space 
security architecture?
    General Raymond. It is an imperative, in my opinion, that 
we develop resilient architectures to be able to operate in the 
contested environment that we face today.
    Mr. Franks. General Buck, do you have any thoughts on that?
    General Buck. Space is a warfighting domain, and if you 
look at the other domains, air, land, sea, they have defensive 
capabilities. They have other capabilities. We can't afford to 
treat space any differently.
    Mr. Franks. Is it fair to say that some of our near-peer 
adversaries' offensive space capabilities have outpaced our 
ability to defend our space assets? And I might ask the two of 
you.
    General Raymond. I would like to have that conversation in 
closed.
    Mr. Franks. I got you. Makes sense.
    All right. Do you see--and I will throw this out to the 
entire panel. Do you see value in establishing an annual 
capstone training exercise, sort of the equivalence of the Red 
Flag, only, say, a Space Flag event for space operators?
    General Buck. We have had our first Space Flag this year. 
Although it is nascent, we are having the conversation, and we 
are moving in the right direction. I see this first Space Flag 
as the first of many to follow. General Raymond.
    General Raymond. I agree.
    Mr. Franks. I sometimes----
    General Raymond. As I mentioned earlier, that is important, 
but there is the other aspect of it that it has got to be, how 
do you integrate air, space, and cyber together, and how do you 
integrate it with not just air, space, and cyber, but with the 
land and the sea, and so there is other opportunities, in 
addition to Space Flag, that provides that capability as well.
    General Buck. And those are space-specific Schriever War 
Games. Those are the global series, on and on. The JSpOC and 
the NSDC [National Space Defense Center] participated in north 
of 70 exercises last year, integrating space into the larger 
fight, so I am really proud of that effort.
    Mr. Franks. Mr. Chairman, I think I will probably leave the 
rest of my questions for the classified session. I thank all of 
you so much. And thank you, Mr. Chairman.
    Mr. Rogers. I thank the gentleman. The gentleman from 
California, Mr. Carbajal, is recognized for 5 minutes.
    Mr. Carbajal. Thank you, Mr. Chairman, and thank you to all 
of you for being here today.
    I represent Vandenberg Air Force Base, and recently had the 
great privilege of joining General Buck on a tour of the 
facility, the JSpOC facility in addition to other facilities 
there. I guess, for my colleagues and just for me to--for it to 
sink in, you could never hear it enough, could you share, 
General Buck, the contribution of the Vandenberg Air Force Base 
JSpOC to our national space strategy and capability, and 
perhaps close with how that relates, or what the nexus is to 
the new JSpOC in Colorado?
    General Buck. Thank you, sir. Good seeing you again.
    We have two primary command and control centers. At 
Vandenberg Air Force Base, we have the Joint Space Operations 
Center. In this operation center, we have our commercial 
partners on the OPS [operations] floor, we have our allied 
partners, FVEY <dagger> partners on the OPS floor. They are 
doing the day-to-day, heavy lifting support to the terrestrial 
fight.
---------------------------------------------------------------------------
    <dagger> FVEY is the abbreviation for ``Five-Eyes,'' an 
intelligence alliance involving Australia, Canada, New Zealand, the 
United Kingdom, and the United States.
---------------------------------------------------------------------------
    When a combatant commander needs space support, space 
effects, they go to the JSpOC, and they provide military 
satellite communications, precision navigation and timing, all 
those space effects, and they do it better than anybody else.
    The National Space Defense Center located at Schriever Air 
Force Base is responsible for looking up, protecting the space 
joint operating area, if you will. So JSpOC at Vandenberg in 
the current fight right now, support to the terrestrial fight; 
the National Space Defense Center at Schriever Air Force Base 
in Colorado, responsible for protecting and defending the space 
joint operating environment.
    General Raymond. And I would pile on today that JSpOC is 
the operational DOD space command and control facility, period, 
dot, and they do spectacular work. I have had the privilege of 
being stationed at Vandenberg four times. Second Lieutenant Jay 
Raymond showed up there in 1984, and they are absolutely 
wonderful airmen and joint--not just airmen, but joint partners 
that keep that domain safe for all, provide a critical 
capability to all of the warfighters around the globe, and is 
the only operational DOD space center that we have today.
    Mr. Carbajal. Well, it was extremely impressive, and I just 
want to thank General Buck for his being so hospitable and 
giving me an opportunity to interface with many of the troops 
and many of your command team there. It was a great visit, it 
was a great learning opportunity, and I just really appreciate 
what you do.
    General Buck. Sir, it is our pleasure. Thank you for 
joining us, sir.
    Mr. Rogers. I thank the gentleman. The chair would like to 
ask a few more questions before we go into closed session. Talk 
a little bit about launch.
    General Raymond, how long do you plan to maintain the Delta 
IV, and I would like for you to differentiate between Delta IV 
Medium versus Delta IV Heavy, and do you plan to keep the Delta 
IV Heavy specifically until a new launch vehicle is certified, 
and if so, how?
    General Raymond. Yeah. There is three Delta IV Mediums that 
are left. The final launch for the Delta IV Medium is scheduled 
in fiscal year 2019. We have seven more Delta IV Heavies. Six 
of those are national security space launches; one of those is 
a NASA [National Aeronautics and Space Administration] launch, 
and there is an option for one more. Final launch will be in 
fiscal year 2023, and we are comfortable that we will have a 
new capability on line to be able to support the requirements 
going forward.
    Mr. Rogers. You just heard, Ms. Sapp, him make reference to 
the national security payloads. How important is it to your 
mission to have the Delta IV Heavy or an equivalent available?
    Ms. Sapp. It is essential to my mission that they are 
available in the near term. I tell you, General Raymond has 
mentioned the partnership between us in the NSDC and in 
operations. We couldn't have better launch partners than we do 
in the Air Force. They have taken care of our mission. We buy 
on their contracts. They made sure we had Delta IV Heavy 
coverage with a lot of transition margin to get to a new 
booster, so we have just been very satisfied with their 
support.
    Mr. Rogers. You heard General Raymond say that he believes 
that by 2023, we will have a replacement certified. I hope so, 
too, but if we don't, do you believe that we should let the 
Delta IV Heavy go before we have an alternative certified?
    Ms. Sapp. I believe we have time to see how the new 
programs mature before we cannot go back on the Delta IV Heavy. 
I wouldn't carry it in the near term. Again, we have got them 
funded through launches in 2023, so we have some time here to 
make the right decision for the Nation.
    Mr. Rogers. That was a lawyerly response. As a lawyer, I 
appreciate that.
    Separately, General Raymond, since the Air Force originally 
developed its strategy to invest in the development of 
commercially viable launch vehicles, there has been another new 
entrant in the commercial launch market. Earlier this year, 
Blue Origin announced it has started to get commercial 
customers for their New Glenn launch vehicle, and maybe they 
will even compete for the launch service agreement funding.
    Has this changed your strategy, and do you think that 
government's role--it is the government's role to build a new 
commercial launch vehicle if they are already being built by 
the commercial sector?
    General Raymond. Chairman Rogers, it doesn't affect our 
strategy at all. Our strategy remains three things, as I 
mentioned: assured access to space, competition, and get off 
the RD-180 engine. Our acquisition strategy is flexible and it 
encourages multiple competitors for national security launch 
services. I don't see it affecting it at all, and we are not 
building commercial launch vehicles.
    Mr. Rogers. What do you know about the BE-4's testing 
setback that we had in recent days? Was its powerpack 
completely destroyed, and how does this impact your schedule?
    General Raymond. My understanding, Chairman, is that Blue 
Origin has announced that they conducted a test that resulted 
in the loss of a powerpack test hardware. Obviously, that 
mishap is regrettable, but it isn't unprecedented in the 
development of in--isn't uncommon in development efforts.
    I think this adds credibility to our strategy to make sure 
that there is multiple engines being developed. I think we have 
visibility, pretty significant visibility into ULA's [United 
Launch Alliance's] processes, although it is ULA's final 
ultimate decision, and then once that decision is made, 
obviously, the Air Force, as a significant customer of that 
launch service, will do its own independent review.
    Mr. Rogers. Excellent. The chair now recognizes the ranking 
member for any final questions he may have.
    Mr. Cooper. Thank you, Mr. Chairman.
    General Raymond, in your testimony on page 12, you mention 
that GPS III SV01 has been completed and is in storage, with an 
initial launch capability date set to occur in spring 2018. 
That struck me as an unnecessary mothballing of a perfectly 
good satellite. Why the delay?
    General Raymond. There is a couple of pieces that we are 
still working on. One, obviously, we are working on making sure 
we can command and control the GPS III satellite with OCX block 
phase zero, which will be up by then, and then also there is 
work to be done on--integration work to be done with the launch 
provider that will launch that satellite.
    Mr. Cooper. Is this customary to have a year or more delay 
in launching a satellite?
    General Raymond. There are satellites that have been in 
storage significantly longer than that. It is not uncustomary. 
We will launch it when it is safe and ready to do so, and we 
can get it onto orbit, and then command and control it. And as 
I mentioned earlier today, earlier in the hearing, that today 
we have a pretty significant GPS constellation on orbit as we 
speak.
    Mr. Cooper. So this is not an issue of assured access to 
space?
    General Raymond. It is an issue of making sure that we can 
command and control that capability when it is on orbit, and 
then working the final details of being able to--for them to 
integrate with the launch vehicle provider that we will launch 
it.
    Mr. Cooper. Okay. Thank you, Mr. Chairman.
    Mr. Rogers. I thank the ranking member. The committee will 
now go into a brief recess as we move to a secure location for 
the classified portion of this briefing.
    [Whereupon, at 9:15 a.m., the subcommittee proceeded in 
closed session.]

      
=======================================================================



                            A P P E N D I X

                              May 19, 2017
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              May 19, 2017

=======================================================================

 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
     

=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                              May 19, 2017

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. ROGERS

    Mr. Rogers. General Raymond--there was a recent Washington Post 
article which reported on a company called Ligado, which prior to a 
restructure was called Lightsquared, and its plan to build a wireless 
network with ground and satellite based systems. Have the issues 
pertaining to GPS been resolved and what are the economic/national 
security risks if we get this wrong?
    General Raymond. No, the issues pertaining to Ligado and GPS have 
not been resolved. The bottom line is that the preliminary results of 
Department of Transportation's Adjacent Band Compatibility Testing 
indicates that the proximity of the Ligado proposed network to the 
primary GPS L1 frequency band results in interference the Air Force, 
Department of Defense and other U.S. government agencies believe is 
unacceptable. If we get this wrong, the network will degrade the 
performance of numerous GPS-based applications to include but not 
limited to important national defense, science, transportation, 
agriculture, banking, communications (e.g., broadband wireless & 
cellular services), health and safety, and environmental systems. This 
will directly impact the economic well-being of the nation and severely 
limit the development of GPS applications in the future. The Ligado 
proposal is a direct challenge to those applications' use of GPS 
technology and is inconsistent with the National Space Policy direction 
to sustain the radiofrequency environment in which critical U.S. space 
systems operate.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. FRANKS
    Mr. Franks. Is it fair to say some of our near-peer adversaries' 
offensive space capabilities have outpaced our ability to defend our 
space assets?
    Do you believe the Air Force as an institution has placed the 
appropriate amount of resources and focus on space commensurate to the 
current and emerging threats?
    Do you see value in establishing an annual capstone training/
exercise, or ``Space Flag'' event for space operators (similar to Red 
Flag)?
    General Raymond. Near peer adversaries have not outpaced our 
ability to defend our space assets today, but I am concerned about the 
future. Our adversaries are rapidly developing capabilities that will 
be able to hold every U.S. space asset in every orbital regime at risk 
in the not too distant future. We need to take action now to address 
our vulnerabilities, so your assertion does not become a true statement 
in the future.
    Unfortunately, the Air Force is facing critical shortfalls in 
readiness and modernization in every one of its mission areas; space is 
one of them. At the same time we are trying to grow cyber capabilities 
and recapitalize fighters, bombers, mobility and nuclear forces, we 
must find a way to restructure our space architectures to create 
resilient systems that can be better protected and defended as an 
enterprise. All of these things are important national priorities. The 
Air Force is asking for a 20 percent increase in space funding in the 
FY18 budget request and will need similar increases in future years. 
However, with all of the budget shortfalls the Air Force faces we have 
to consider the possibility that that the Air Force alone cannot afford 
to make the investment needed to transform our space enterprise to 
operate effectively in a contested environment; we may need to look at 
national funding sources that are beyond what the Air Force alone is 
able to provide.
    Absolutely, the effort is already underway to provide tactical-
level training focused on evolving threats levering knowledge gained 
during rounds of experimentation at the National Space Defense Center. 
The first Space Flag was conducted 17-21 April 2017 at Schriever AFB, 
CO. It was a successful, computer assisted exercise that included four 
operational space squadrons, the National Space Defense Center, the 
Joint Space Operations Center and several other associated 
organizations. Our vision and intent is to grow Space Flag to become 
the comprehensive, robust event that trains our Airmen similar to Red 
Flag. We will continue building upon the initial Space Flag to create 
an environment where the space enterprise can come together and 
exercise our toughest scenarios and challenges against a thinking 
adversary in a safe and realistic manner.
    Mr. Franks. Do you believe it is fair to say space has been 
weaponized?
    Do you believe we need a more robust defensive sensor layer to 
adequately identify the latest and emerging threats to our space 
assets?
    General Raymond. Space is a contested warfighting domain, just like 
land, air, sea and cyberspace. As a nation we need to embrace this 
fact. We need to be prepared to use multi-domain capabilities to 
protect our space systems. If we fall short protecting against threats 
in space, the effect will certainly be felt across all warfighting 
domains.
    Yes, we need a more robust defensive sensor layer to adequately 
address the threat to our space assets. This is one on my top 
priorities. Today we are leveraging our existing space surveillance 
capabilities and are developing new capabilities such as the Space 
Fence, as well as expanding our partnership with the NRO. We also 
continue to enhance situational awareness sharing partnerships to 
provide us additional space surveillance data. Finally, we are 
developing a battle management command and control system which will 
allow us to more fully leverage additional data sources from commercial 
capabilities to high end intelligence data.
    Mr. Franks. Should the U.S. treat space as a warfighting domain?
    Should the U.S. develop defensive capabilities to counter kinetic 
attacks against our space security architecture?
    General Raymond. Yes. I stand by my opening statement to the 
committee: ``Today, in no uncertain terms, space is a war fighting 
domain just like air, land and sea. Potential adversaries are 
developing capabilities to deny us access to and the benefits of the 
space domain. Let me be very clear, we do not want a conflict that 
extends into space. But one way to keep that from happening is to make 
sure that we're prepared for it and be able to fight and win that 
conflict if it were to occur.''
    We are already investing in systems to improve the space 
situational awareness that is foundational for defense to include Space 
Based Surveillance System and Geosynchronous Space Situational 
Awareness Program and Space Fence. We are also taking steps to build 
more on-board and off-board protection capabilities into our future 
systems to make them more resilient against both kinetic and non-
kinetic threats.
    Mr. Franks. Is it fair to say some of our near-peer adversaries' 
offensive space capabilities have outpaced our ability to defend our 
space assets?
    General Buck. The pace at which potential near-peer adversaries are 
pursuing capabilities to deny US advantages in space is certainly 
concerning and I see no slowing in the future. Potential adversary 
capabilities have yet to eclipse our ability to defend; however, our 
architectures and systems were designed in and for an era without such 
threats. We must continue to train our forces and field new systems 
with an eye to maintain our edge in today's contested, degraded and 
operationally-limited environment. And, we must do so faster than our 
adversaries can adapt, which means our acquisitions cycles must be 
nimble enough to bring capabilities to the fight on operationally-
relevant timelines.
    Mr. Franks. Do you believe the Air Force as an institution has 
placed the appropriate amount of resources and focus on space 
commensurate to the current and emerging threats?
    General Buck. We are in the midst of a significant shift in the DOD 
space enterprise; moving from a service-provider mindset to operational 
warfighter mindset. As we make this shift, we have identified several 
areas that require added focus to ensure they meet the demands of 
maintaining freedom of action in space. Beyond organizational changes, 
these areas include space intelligence support, robust battle 
management command and control and space situational awareness 
capabilities and ensuring we have the right authorities and rules of 
engagement in place. We are making strides in these areas; however, the 
budgetary uncertainty driven by sequestration and past shortfalls makes 
addressing the challenges more difficult.
    Mr. Franks. Do you see value in establishing an annual capstone 
training/exercise, or ``Space Flag'' event for space operators (similar 
to Red Flag)?
    General Buck. Absolutely, yes. Training our space warfighters to 
operate in a contested, degraded and operationally-limited environment 
is vital. Such advanced training is foundational to our Space Mission 
Force construct and underpins our push to normalize operations. As we 
normalize space operations, we must also balance the need to stress and 
train our own space crew forces with the need to practice how we 
synchronize space operations and effects into large-scale exercise 
planning and execution.
    Mr. Franks. Do you believe it is fair to say space has been 
weaponized?
    General Buck. We have no desire to weaponize space and we are 
working hard to ensure no country believes they can gain an advantage 
by extending a conflict to space. A conflict which extends to space is 
in no one's best interest and would have drastic and enduring second 
and third order economic effects, not just on the U.S., but on the 
entire world. But, it is certainly clear that potential adversaries are 
developing systems with the sole intent to destroy, deny or degrade DOD 
space systems. It's important to understand that like all nations we 
have the inherent right of self-defense, so purposeful interference 
with space assets vital to our national security will be met by all 
necessary means. No one wants a war in space. The best way to avoid 
such conflict . . . to deter future adversaries . . . is to always be 
prepared to protect and defend unfettered access in, through and from 
space.
    Mr. Franks. Do you believe we need a more robust defensive sensor 
layer to adequately identify the latest and emerging threats to our 
space assets?
    General Buck. Yes, and what is critical at this juncture is to 
ensure the enterprise on the whole is capable of responding to emerging 
threats. This includes the right architectures, the right CONOPS and 
definitely the capabilities necessary to identify threats in order to 
defend our space assets. This is where it is imperative to improve our 
capabilities for space intelligence and indications & warnings and 
battle management command and control systems.
    Mr. Franks. Should the U.S. treat space as a warfighting domain?
    General Buck. Yes, space is a warfighting domain, fundamentally no 
different that land, air or sea. It is clear by potential adversary 
actions that we must be prepared to protect and defend the space joint 
operating area. But, there is no space war, just war and normalize 
space operations is critical to maintaining freedom of action in, 
through and from space.
    Mr. Franks. Should the U.S. develop defensive capabilities to 
counter kinetic attacks against our space security architecture?
    General Buck. Yes, and space situational awareness capabilities are 
the cornerstone of defending our space assets. We must continue to 
pursue SSA capabilities that go beyond satellite catalog maintenance 
and move to joint warfighting battlespace awareness capabilities.
    Mr. Franks. Is it fair to say some of our near-peer adversaries' 
offensive space capabilities have outpaced our ability to defend our 
space assets?
    Do you believe the Air Force as an institution has placed the 
appropriate amount of resources and focus on space commensurate to the 
current and emerging threats?
    Do you see value in establishing an annual capstone training/
exercise, or ``Space Flag'' event for space operators (similar to Red 
Flag)?
    Mr. Hill. Russia and China are continuing to pursue a full range of 
anti-satellite weapons that are designed to reduce U.S. military 
effectiveness, and both countries are increasingly considering attacks 
against satellite systems as part of their future warfare doctrine. As 
such, maintaining the advantages U.S. forces derive from space requires 
unprecedented mission-assurance efforts. This must include more 
resilient architectures, measures to improve the defense of our space 
assets, and the ability to reconstitute lost capabilities on 
operational timelines. These counterspace challenges began to emerge in 
the late 1990s. Although the Department of Defense was initially slow 
to respond, efforts in recent years have greatly increased the focus 
and resources applied to the task. Nevertheless, we must all recognize 
that the growing threats to space systems and capabilities are an 
enduring condition of modern warfare, requiring that we sustain and 
reinforce those mission assurance efforts in the years ahead in order 
to sustain our advantages.
    Mr. Franks. Do you believe it is fair to say space has been 
weaponized?
    Do you believe we need a more robust defensive sensor layer to 
adequately identify the latest and emerging threats to our space 
assets?
    Mr. Hill. It is fair to say that the space domain and space-based 
capabilities are fully intertwined with the other domains in modern 
warfare, and that we must take the necessary steps to protect and 
defend the important assets deployed in space. Just as we place sensors 
in space and other domains to help us understand threats and to predict 
and attribute developments in the terrestrial battlespace, so too does 
defense of our space-based capabilities require that we improve our 
sensor networks, both space-based and terrestrial-based, to understand 
threats and to predict and attribute activities in the space domain.
    Mr. Franks. Should the U.S. treat space as a warfighting domain?
    Should the U.S. develop defensive capabilities to counter kinetic 
attacks against our space security architecture?
    Mr. Hill. Yes, the United States should and does treat space as a 
warfighting domain. The Department of Defense is taking appropriate 
measures to assure the missions that our space-based capabilities 
support in the face of growing counterspace threats, such as kinetic 
attacks.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LAMBORN
    Mr. Lamborn. I understand that there have been delays in the Air 
Force's Pathfinder 2 initiative due to property management and 
appropriations law constraints related to the use of transponders and 
satellite bandwidth. To what extent could these delays be avoided with 
more flexible spending authority? What is the timeline for completion 
of Pathfinder 2 and Pathfinder 3?
    General Raymond. The flexibility to use Procurement funds for 
acquiring commercial communication services, in addition to the ability 
to buy a fully funded end item, would have been beneficial to awarding 
Pathfinder #2 earlier than currently planned. As a result of the 
appropriations law and property management challenges, several 
Pathfinder #2 objectives were deferred to Pathfinders #3 and #4. 
COMSATCOM Pathfinder #2 is on track to complete all award activities in 
1QFY18. COMSATCOMM Pathfinder #3, which is utilizing an OTA, is on 
track to award in 4QFY17.
    Mr. Lamborn. As you know, satellite communications have never been 
more vital to the security of our nation or come under such assault. To 
address the cyber threats to our satellite communications and 
accelerate adoption of built-in cyber defenses, the Department 
developed information assurance requirements for commercial providers. 
To what extent does the Department use information assurance criteria 
in its evaluation and acquisition of COMSATCOM? What is the process for 
evaluating commercial suppliers' information assurance capabilities?
    General Raymond. To address cybersecurity in our use of commercial 
providers for satellite communications, Space and Missile Systems 
Center (SMC) and Defense Information Systems Agency (DISA) efforts use 
DISA's cyber Risk Management Framework (RMF) to assess risk during 
source selection. The RMF consists of an extensive set of cybersecurity 
questions that the bidder must address. In evaluating industry 
responses, a pass/fail assessment for information assurance is 
determined against the industry responses to the RMF questions. SMC 
invites a DISA member, familiar with their cyber RMF, to participate in 
the source selection and this member determines the pass/fail 
assessment. United States Strategic Command has appointed DISA as the 
Authorizing Official (AO) for DOD Commercial Satellite Communications 
(COMSATCOM) systems. DISA has extensive experience evaluating 
cybersecurity for leased COMSATCOM services and coordinates these 
assessments with their customers to ensure the customer is aware of any 
risks and can implement proper mitigations. SMC is leveraging DISA and 
National Security Agency (NSA) practices in the procurement of 
commercial products under the COMSATCOM Pathfinder and Pilot efforts.
    Mr. Lamborn. What steps for the new EBMC2 program or other related 
efforts (e.g., market research, acquisitions, demonstrations, 
evaluations, exercises, experiments, prototypes, proof of concepts, 
pilots, numerical validations, operations, etc.) has the USAF taken to 
identify commercial SSA/BMC2 software capabilities and services that 
can, in whole or in part, help satisfy the USAF's needs for improved 
SSA and BMC2?
    General Raymond. Air Force Space Command has taken several steps to 
identify commercial SSA/BMC2 software capabilities and services that 
can, in whole or in part, help satisfy the USAF's need for improved SSA 
and BMC2. First, the Space and Missile Systems Center released a 
Request for Information on a broad range of Enterprise Space BMC2 
(ESBMC2) requirements in January 2017 that resulted in 26 industry 
responses. No single commercial company stated that they have the 
capabilities to address the full set of mission and infrastructure 
requirements for ESBMC2. Therefore, SMC is refining the acquisition 
strategy that will enable rapid integration of multiple commercial, 
defense industry, and government solutions to meet requirements. Our 
goal is to complete this overarching acquisition strategy by December 
2017. The strategy will incorporate preceding operational prototype 
capabilities from the BMC2 Joint Emergent Operational Need (JEON) and 
Air Force Rapid Capabilities Office and create an enduring rapid 
application delivery process that will incorporate the best 
capabilities from commercial and defense industry.
    Mr. Lamborn. Have any commercial SSA/BMC2 software capabilities and 
services been identified that will help satisfy the USAF's needs for 
improved SSA and BMC2?
    General Raymond. Yes, Air Force Space Command has taken several 
steps to identify commercial SSA/BMC2 software capabilities and 
services that can, in whole or in part, help satisfy the Air Force's 
need for improved SSA and BMC2. First, the Space and Missile Systems 
Center released a Request for Information on a broad range of 
Enterprise Space BMC2 (ESBMC2) requirements in January 2017 that 
resulted in 26 industry responses. While no single commercial company 
stated that they have the capabilities to address the full set of 
mission and infrastructure requirements for ESBMC2, commercial services 
exist that can address some of our requirements. Second, the Space and 
Missile Systems Center released a Broad Area Announcement (BAA) on 22 
May 2017 seeking capabilities from Commercial and Defense Industry to 
address technology maturation concepts for the broad range of 
Enterprise Space BMC2 requirements. Third, AFSPC is independently 
validating and verifying several commercial data providers to augment 
the Space Surveillance Network via the Non-Traditional Data Pre-
Processor (NDPP) program. Finally, SMC is also implementing several 
commercial SSA capabilities as part of the Joint Space Operations 
Center Mission System Increment 2 effort.
    Mr. Lamborn. In all of its efforts, including the RCO program and 
consortium, what is the USAF's plan to prioritize the use of commercial 
SSA/BMC2 software capabilities and services to the maximum extent 
practicable first before then filling in any remaining operational gaps 
with government prototyping and redevelopment for the truly unique 
military requirements that don't reside in the commercial marketplace? 
How is this prioritization reflected in the USAF's current FY17 funding 
plan as well as in the proposed FY18 budget going forward through the 
FYDP?
    General Raymond. In the USAF's current FY17 funding plan as well as 
in the proposed FY18 budget going forward through the FYDP, the Air 
Force will first leverage, to the maximum extent practicable, 
commercial tools in all areas where they cost-effectively meet 
government requirements to include mission requirements, resiliency, 
supportability, and cybersecurity. This includes support for improved 
space situational awareness, satellite control, and event analysis. In 
the FY17 and FY18 ESBMC2 execution plan, the Air Force is pursuing 
commercial and defense industry technologies via a Broad Agency 
Announcement (BAA) which posted to Federal Business Opportunities on 22 
May 2017. This BAA continues for five years. In FY17 and FY18, efforts 
under the AFRL-led BMC2 JEON will continue to evaluate commercial and 
other applications that improve decision timeliness, decision quality 
and the ability to handle simultaneous adversary actions. 
Infrastructure elements and software applications, regardless of 
origin, that provide the most capability improvement will receive 
priority. Recent market research has identified numerous commercial 
solutions that address subsets of the battle management and command and 
control requirements. The Air Force plans to further work with the 
commercial vendors of these solutions to asses if they meet 
requirements and then rapidly integrate them into a multi-level, cyber 
defensible network to achieve initial capabilities. As we operationally 
identify improvements needed to the existing capabilities and gaps in 
overall capability, we will aggressively pursue Other Transaction 
Authority and other contractual vehicles that enable the Air Force to 
pursue a commercial DevOps software development model. This model will 
enable us to push commercial vendors to improve existing and build new 
products that satisfy known and evolving requirements for BMC2. In 
concert with the rapid software development and fielding, SMC will 
fulfill their enterprise management role by building the logistical 
tail required to support this construct.
    Mr. Lamborn. Given that the USAF continues to not follow this 
prioritization on the JMS program, under the JEON, and with the NDPP, 
what steps are being taken to change this and ensure AFSPC, SMC, AFRL, 
RCO and all other supporting organizations follow through on this 
prioritization?
    General Raymond. JMS brought in commercial capabilities for event 
processing (reentry, closely-spaced objects, launch, deorbit, breakup), 
and event generation for training and exercises. JMS also evaluated 
commercial capabilities for catalog processing, but did not incorporate 
either commercial capability because they did not meet accuracy 
performance requirements. ESBMC2 will incorporate additional commercial 
processing as part of the planned multi-hypothesis event analysis 
capabilities. The AFRL JEON is planning to add additional commercial 
vendors to the team via a formal procurement process. This will allow 
additional commercial capabilities to be incorporated. The Non-
Traditional Data Pre-Processor (NDPP) effort, once operationally 
accepted in July 2017, will be a conduit for accessing data sources to 
perform several functions. These include:
    1. Use of commercial data and non-traditional data (IC, commercial, 
academia, foreign, etc.)
    2. Establishment of data standards
    3. Application of cyber resilience and protection requirements
    4. Enabling of operational test for future sensors
    The RCO Prototype and SMC efforts are conducting market research 
for their activities. These efforts will consider all proposed 
commercial capabilities when making content decisions. These decisions 
will be made following evaluation of cost (procurement, development and 
sustainment), schedule, integration complexity and requirement 
satisfaction for multiple commercial and industry tools as well as new-
development options.
    Mr. Lamborn. How do you plan to train and incentivize people to 
follow this prioritization and then hold them accountable, as 
necessary?
    General Raymond. Training starts with an understanding of the 
threat environment. Adopting and improving commercial solutions that 
meet government requirements is one of the simplest ways to acquire 
capabilities on a timeline to outpace threats. Personnel are trained to 
look at all commercially available technologies and existing 
capabilities when building acquisition strategies to meet requirements, 
developing technical solutions, and issuing Requests for Information. 
Senior leaders provide oversight and hold organizations/personnel 
accountable for providing space capabilities to the nation.
    Mr. Lamborn. I understand that there have been delays in the Air 
Force's Pathfinder 2 initiative due to property management and 
appropriations law constraints related to the use of transponders and 
satellite bandwidth. To what extent could these delays be avoided with 
more flexible spending authority? What is the timeline for completion 
of Pathfinder 2 and Pathfinder 3?
    General Buck. As Commander JFCC SPACE, I respectfully defer to Air 
Force Space Command and General Raymond as to the specifics of 
Pathfinder acquisition. Commercial SATCOM is vital to the joint fight 
and we will continue to work closely with Air Force Space Command.
    Mr. Lamborn. As you know, satellite communications have never been 
more vital to the security of our nation or come under such assault. To 
address the cyber threats to our satellite communications and 
accelerate adoption of built-in cyber defenses, the Department 
developed information assurance requirements for commercial providers. 
To what extent does the Department use information assurance criteria 
in its evaluation and acquisition of COMSATCOM? What is the process for 
evaluating commercial suppliers' information assurance capabilities?
    General Buck. As Commander JFCC SPACE, I respectfully defer to Air 
Force Space Command and the Defense Information Systems Agency (DISA) 
as to the criteria related to COMSATCOM acquisitions. It is absolutely 
critical to ensure cyber protections are in place for space systems 
within the DOD space enterprise and we are confident AFSPC and DISA are 
the appropriate agencies to ensure appropriate criteria are applied to 
satellite communications acquisitions.
    Mr. Lamborn. What steps for the new EBMC2 program or other related 
efforts (e.g., market research, acquisitions, demonstrations, 
evaluations, exercises, experiments, prototypes, proof of concepts, 
pilots, numerical validations, operations, etc.) has the USAF taken to 
identify commercial SSA/BMC2 software capabilities and services that 
can, in whole or in part, help satisfy the USAF's needs for improved 
SSA and BMC2?
    General Buck. As Commander JFCC SPACE, I respectfully defer to Air 
Force Space Command and General Raymond as to the specifics of SSA/
ESMBC2 acquisitions. Based on recent requests for information, however, 
it does not appear that a single commercial company or commercial 
capability can address the full set of ESBMC2 requirements. ESBMC2 is a 
complex challenge to overcome; this is why we continue to work closely 
with AFSPC and SMC to ensure operational equities are accounted for in 
the requirements definition process and to guide the delivery of 
capabilities to address the most critical operational needs first.
    Mr. Lamborn. Have any commercial SSA/BMC2 software capabilities and 
services been identified that will help satisfy the USAF's needs for 
improved SSA and BMC2?
    General Buck. As Commander JFCC SPACE, I respectfully defer to Air 
Force Space Command and General Raymond as to the acquisition of 
commercial SSA/BMC2 software capabilities. However, my team is in lock-
step with both Air Force Space Command and the Space and Missile 
Systems Center as they work toward an SSA/BMC2 solution that meets 
warfighter requirements to include incorporating commercial data 
through systems such as the Non-traditional Data Pre-Processor (NDPP). 
In addition, when the JICSpOC began in July 2015, we realized early no 
one set of tools for space protection was available. With the help of 
the 50th Space Wing, we brought commercial SSA and Battle Management 
Command and Control tools into the JICSpOC, and leveraged other 
commercial data providers to augment our SSA picture during 
experimentation. The lessons from experimentation have informed follow-
on ESBMC2 acquisition planning.
    Mr. Lamborn. In all of its efforts, including the RCO program and 
consortium, what is the USAF's plan to prioritize the use of commercial 
SSA/BMC2 software capabilities and services to the maximum extent 
practicable first before then filling in any remaining operational gaps 
with government prototyping and redevelopment for the truly unique 
military requirements that don't reside in the commercial marketplace? 
How is this prioritization reflected in the USAF's current FY17 funding 
plan as well as in the proposed FY18 budget going forward through the 
FYDP?
    General Buck. As Commander JFCC SPACE, I respectfully defer to Air 
Force Space Command as to the acquisition of commercial SSA/BMC2 
software capabilities and services and associated Air Force budget 
plans. We continue to work closely with both Air Force Space Command, 
Space and Missile Systems Center and the Air Force Research Lab toward 
an SSA/BMC2 solution that meets warfighter requirements.
    Mr. Lamborn. Given that the USAF continues to not follow this 
prioritization on the JMS program, under the JEON, and with the NDPP, 
what steps are being taken to change this and ensure AFSPC, SMC, AFRL, 
RCO and all other supporting organizations follow through on this 
prioritization?
    General Buck. As Commander JFCC SPACE, I respectfully defer to Air 
Force Space Command and General Raymond as priorities of AFSPC, SMC, 
AFRL and RCO. JFCC SPACE will continue to work closely and provide 
feedback on the JMS program.
    Mr. Lamborn. How do you plan to train and incentivize people to 
follow this prioritization and then hold them accountable, as 
necessary?
    General Buck. As Commander JFCC SPACE, I respectfully defer to Air 
Force Space Command and General Raymond as priorities and 
accountability of AFSPC, SMC, AFRL and RCO. JFCC SPACE will continue to 
work closely and provide feedback on the JMS program.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. HUNTER
    Mr. Hunter. The FY17 NDAA requires DOD to avoid the use of LPTA 
source selection criteria in inappropriate circumstances that 
potentially deny DOD the benefits of cost and technical trade-offs in 
the source selection process. And yet DISA continues to use LPTA for 
commercial SATCOM acquisitions for critical national security missions 
such as the Army's Blue Force Tracking, the Navy's Commercial Broadband 
SATCOM program, and Air Force's Airborne Intelligence Surveillance and 
Reconnaissance SATCOM requirements. Each of these missions and more 
require mission assurance in their satellite communication yet are 
being awarded under LPTA procurement methods without technical 
discrimination of information assurance, availability, reliability, 
etc.
    What steps are being taken to ensure mission critical warfighting 
services, like Commercial SATCOM, are performance based acquisitions 
with proper technical trade-offs rather than LPTA? What process is in 
place to adjudicate and report on the correct application of LPTA 
methodologies by DISA and other agencies?
    General Raymond. Acquisition agencies utilize an array of methods 
along the best value continuum in executing competitive procurements 
based on the number of considerations. At one end of the best value 
continuum, LPTA can be appropriate where requirements are well defined, 
the risk of unsuccessful contract performance is minimal, agency needs 
can be satisfied by meeting minimum threshold levels, and where the 
agency does not require paying higher costs for higher performance. In 
addition, LPTA also takes into consideration the use of a firm fixed 
price type contracts. Contract type often takes into account factors 
such as the size of the effort, the type of effort, the complexity of 
the requirement, the maturity of technology, and availability of the 
supplies or services in the commercial market place. For AFSPC efforts, 
the Space and Missile Systems Center continues to examine the use of 
LPTA versus a broader best-value tradeoff as part of the review process 
associated with Acquisition Strategy Documents and Source Selection 
Plans. Approaches such as a Value Adjusted Total Evaluated Price are 
being considered as an alternative that may protect open competition 
while valuing more varied capabilities presented by COMSATCOM 
operators. Each acquisition examines a variety of items including 
industry capabilities, technology maturity, risk, requirements, and 
other acquisition related factors when developing the acquisition 
strategy, selecting the contract type, and determining the competitive 
method of evaluation to satisfy requirements. When the acquisition 
strategy is briefed to senior leadership, rationale for using LPTA (or 
not) is discussed, as appropriate.
    Mr. Hunter. The FY17 NDAA requires DOD to avoid the use of LPTA 
source selection criteria in inappropriate circumstances that 
potentially deny DOD the benefits of cost and technical trade-offs in 
the source selection process. And yet DISA continues to use LPTA for 
commercial SATCOM acquisitions for critical national security missions 
such as the Army's Blue Force Tracking, the Navy's Commercial Broadband 
SATCOM program, and Air Force's Airborne Intelligence Surveillance and 
Reconnaissance SATCOM requirements. Each of these missions and more 
require mission assurance in their satellite communication yet are 
being awarded under LPTA procurement methods without technical 
discrimination of information assurance, availability, reliability, 
etc.
    What steps are being taken to ensure mission critical warfighting 
services, like Commercial SATCOM, are performance based acquisitions 
with proper technical trade-offs rather than LPTA? What process is in 
place to adjudicate and report on the correct application of LPTA 
methodologies by DISA and other agencies?
    General Buck. As Commander JFCC SPACE, I respectfully defer to DISA 
as to the LPTA methodologies used. Commercial services are critical to 
joint warfighters worldwide. In fact, JFCC SPACE has found immense 
value in partnering with commercial entities through our Commercial 
Integration Cell at the Joint Space Operations Center. Such 
relationships are vital to ensuring a broad range of information is 
available for critical warfighting services.
    Mr. Hunter. The FY17 NDAA requires DOD to avoid the use of LPTA 
source selection criteria in inappropriate circumstances that 
potentially deny DOD the benefits of cost and technical trade-offs in 
the source selection process. And yet DISA continues to use LPTA for 
commercial SATCOM acquisitions for critical national security missions 
such as the Army's Blue Force Tracking, the Navy's Commercial Broadband 
SATCOM program, and Air Force's Airborne Intelligence Surveillance and 
Reconnaissance SATCOM requirements. Each of these missions and more 
require mission assurance in their satellite communication yet are 
being awarded under LPTA procurement methods without technical 
discrimination of information assurance, availability, reliability, 
etc.
    What steps are being taken to ensure mission critical warfighting 
services, like Commercial SATCOM, are performance based acquisitions 
with proper technical trade-offs rather than LPTA? What process is in 
place to adjudicate and report on the correct application of LPTA 
methodologies by DISA and other agencies?
    Ms. Sapp. The National Reconnaissance Office (NRO) uses the best 
value trade off process for nearly all its requirements. The best value 
source selection process allows the NRO to place greater emphasis on 
technical and other non-cost categories and select the proposals that 
offer the best solutions in terms of technical performance and cost. 
This approach encourages industry to provide innovative, high 
performing systems and quality services. More specifically, multiple 
recent NRO source selections have used evaluation criteria that clearly 
state that non-cost factors are either significantly more important or 
approximately equal to cost or price and that the Government may select 
other than the lowest proposed cost. To emphasize this approach, the 
DNRO introduced the Executable Contracts Initiative to improve 
acquisition outcomes and award contracts with attainable schedules and 
realistic prices. This initiative emphasizes investing in early 
acquisiton planning to create tighter Statements of Work to clearly 
define requirements, develop incentives that clearly reflect NRO 
priorities, use all contracting tools available, conduct thorough 
market research to ensure industry has both the capacity and capability 
to perform, emphasize cost realism not proposed cost, and conduct 
overall risk assesments that evaluate past performance, capabilities, 
cost, and schedule. The lowest priced technically acceptable process is 
rarely used by the NRO and is generally reserved for acquisitions with 
less complex technical requirements such as commodity or commercial 
goods and services.
    Mr. Hunter. The FY17 NDAA requires DOD to avoid the use of LPTA 
source selection criteria in inappropriate circumstances that 
potentially deny DOD the benefits of cost and technical trade-offs in 
the source selection process. And yet DISA continues to use LPTA for 
commercial SATCOM acquisitions for critical national security missions 
such as the Army's Blue Force Tracking, the Navy's Commercial Broadband 
SATCOM program, and Air Force's Airborne Intelligence Surveillance and 
Reconnaissance SATCOM requirements. Each of these missions and more 
require mission assurance in their satellite communication yet are 
being awarded under LPTA procurement methods without technical 
discrimination of information assurance, availability, reliability, 
etc.
    What steps are being taken to ensure mission critical warfighting 
services, like Commercial SATCOM, are performance based acquisitions 
with proper technical trade-offs rather than LPTA? What process is in 
place to adjudicate and report on the correct application of LPTA 
methodologies by DISA and other agencies?
    Mr. Cardillo. The National Geospatial-lntelligence Agency (NGA) 
conducts source selections in a variety of ways in accordance with the 
Federal Acquisition Regulation (FAR). NGA may uses FAR part 15, 
``Contracting by Negotiations,'' FAR Part 12, ``Acquisition of 
Commercial Items,'' or FAR part 13, ``Simplified Acquisition 
Procedures,'' depending on which approach best meets the need of the 
Government for a given set of requirements.
    Every acquisition is viewed independently. Each Contracting Officer 
(CO) has the fiduciary responsibility to weigh all options to determine 
which is in the best interest of the Government. The CO presents and 
justifies their approach to the Contracts Review Board, chartered by 
the Senior Procurement Executive. The criteria for determining whether 
to use Lowest Price Technically Acceptable (LPTA) or best value trade-
off include the importance of the need and the complexity of the 
requirement. NGA's Acquisition Plans, Acquisition Strategies, and 
Negotiation Memorandums capture the CO's decision and why LPTA or best 
value trade-off was chosen.
    Although NGA periodically sends funds to the Defense Information 
Systems Agency via Military Interdepartmental Purchase Requests for 
various efforts, including Comsat/Transport Services, NGA does not 
provide direction or guidance and has no insight regarding how DISA 
manages its acquisition activities.
    Mr. Hunter. The FY17 NDAA requires DOD to avoid the use of LPTA 
source selection criteria in inappropriate circumstances that 
potentially deny DOD the benefits of cost and technical trade-offs in 
the source selection process. And yet DISA continues to use LPTA for 
commercial SATCOM acquisitions for critical national security missions 
such as the Army's Blue Force Tracking, the Navy's Commercial Broadband 
SATCOM program, and Air Force's Airborne Intelligence Surveillance and 
Reconnaissance SATCOM requirements. Each of these missions and more 
require mission assurance in their satellite communication yet are 
being awarded under LPTA procurement methods without technical 
discrimination of information assurance, availability, reliability, 
etc.
    What steps are being taken to ensure mission critical warfighting 
services, like Commercial SATCOM, are performance based acquisitions 
with proper technical trade-offs rather than LPTA? What process is in 
place to adjudicate and report on the correct application of LPTA 
methodologies by DISA and other agencies?
    Mr. Hill. DOD is complying with the referenced requirements of 
section 813 of the National Defense Authorization Act for Fiscal Year 
2017 (Public Law 114-328) (NDAA for FY 2017). The evaluation criteria 
for each commercial satellite communications (COMSATCOM) lease are 
considered independently based on a review of the requirement and 
consultation with the customer organization. The use of lowest price 
technically acceptable (LPTA) is determined to be appropriate when: the 
minimum requirements are clearly definable; the Government would 
realize minimal to no value from a proposal exceeding the minimum 
requirements; varying technical approaches would require little to no 
subjective judgment for acceptability; proposals would not result in 
the identification of factors that could provide value or benefit; and 
the price reflects full life-cycle costs. The LPTA source selection 
process is appropriate when best value is expected to result from 
selection of the technically acceptable proposal with the lowest 
evaluated price. (FAR 15.101-2(a)). Thus, in certain cases, this 
approach can yield great competitive value for the Government in 
meeting its well-defined requirements. Approximately 85 percent of the 
current COMSATCOM contracts procured through the Defense Information 
Systems Agency (DISA) are for transponded capacity, or pools of 
bandwidth supporting diverse missions over specific regions. 
Transponded capacity requirements are well-defined with established 
service-level agreements providing high availability and reliability 
standards that do not allow for value from a proposal exceeding the 
minimum requirements. The Government has been very well served by the 
highly competitive use of LPTA in appropriate cases. For example, in 
the specific cases of Blue Force Tracking and the Commercial Broadband 
Satellite Program (CBSP) Satellite Services Contract (CSSC), the basic 
requirement was for large amounts of satellite capacity, teleport 
services, and terrestrial backhaul. The specific performance standards, 
such as coverage and availability, continued to be well-defined as 
stated above. The competitive award of Blue Force Tracker in 2013 
resulted in an estimated life cycle cost (LCC) savings of approximately 
$169.2M when compared to the predecessor contract. Similarly, the 
competitive award of the CSSC in 2016 resulted in an estimated LCC 
savings of approximately $139.5M. Performance on both of these 
contracts remains acceptable.
                                 ______
                                 
                 QUESTIONS SUBMITTED BY MR. BRIDENSTINE
    Mr. Bridenstine. Will JMS Inc 2 Full Deployment satisfy growing 
processing requirements associated with increased observations from new 
SSA sensors like Space Fence, ORS-5, etc, prior to delivery of ESBMC2?
    General Raymond. Yes, JMS Inc 2 will be able to support 3 million 
observations a day, 50+ million observations accessible in the database 
and a catalog of 100,000 objects as required in the JMS Capabilities 
Development Document. These requirements were set for JMS to ensure it 
can handle the catalog capacity that is expected in the future.
    Mr. Bridenstine. Do you anticipate that JMS Inc2 Full Deployment 
will fulfill all SSA processing requirements from implementation until 
delivery of ESBMC2?
    If not, what is the USAF's plan to mitigate this gap? Will COTS 
capabilities with mature TRLs be considered for timely and cost-
effective implementation?
    General Raymond. No, JMS Inc 2 will replace legacy space 
situational awareness (SSA) capabilities and also includes SSA 
enhancements to include a TS/SCI catalog, increased system throughput 
to support Space Fence and other future sensors, and automation of many 
legacy capabilities. Other SSA enhancements such as an Electro-magnetic 
Spectrum Common Operating Picture and a Special Access Program enclave 
will be completed by ESBMC2. To facilitate the transition from JMS Inc 
2 to ESBMC2, AFSPC initiated the Global Sensor Watch (GSW) program. GSW 
integrates the Space Surveillance Network by leveraging Element Sets 
produced by legacy C2 at Dahlgren, VA (current) and JMS Inc 2 in the 
future (once JMS is operationally accepted). The GSW architecture was 
built within the JMS AFRL ARCADE development environment and will 
directly connect to JMS and the BMC2 Joint Emergent Operational Need 
(JEON) Spiral Capability sets. Collaboration has already begun between 
the SMC and the Air Force Rapid Capabilities Office (AFRCO) to ensure 
that these evolving SSA processing capabilities will continue to align 
with the future ESBMC2 architecture. Yes, the USAF will consider COTS 
capabilities with mature Technology Readiness Levels (TRLs) for timely 
and cost-effective implementation. The Air Force will balance urgent 
operational needs with life-cycle costs, since JMS Increment 2 has 
shown that COTS capabilities may require significant time and 
investment in order to become an integrated piece of a comprehensive 
solution. The plan to mitigate the gap between the JMS Increment 2 Full 
Deployment Decision and full delivery of ESBMC2 includes JEON ST-0006 
and the AFRCO Operational Prototype.
    Mr. Bridenstine. The FY17 Defense Appropriations Bill appropriated 
$5M for the Commercial Weather Data Pilot Program. What is the status 
of the program? What is the anticipated overall timeline and budget for 
the pilot?
    General Raymond. The Air Force has appointed the Air Force Life 
Cycle Management Center as the Systems Programs Office to oversee the 
pilot program. The program is scheduled to initiate in July 2017, 
pending initial distribution of FY17 appropriations. Current plans are 
to leverage available space weather data sources to assess the 
viability of commercial satellite weather data in supporting DOD 
operations. The Air Force intends to complete industry solicitations by 
this summer and evaluate data quality and impacts to existing models 
used to characterize the natural space environment. This effort is 
expected to be completed by October 2018, using the FY17 funds. If 
funding were to be available in FY18 and beyond, additional evaluations 
could be initiated on commercial data sources from airborne and ground 
based sensors and their potential to improve global battlespace 
awareness and numerical weather prediction capabilities.
    Mr. Bridenstine. How does your recent Space Flag exercise enhance 
our space warfighter capability?
    General Raymond. April 2017, we conducted a proof of concept 
exercise, Space Flag 17-1, with involvement from the 50th Space Wing, 
NSDC, JSpOC and Air Force Warfare Center. As a first event and proof of 
concept, we had modest goals for the exercise. However, the event was a 
huge success. We were able to exercise multiple crews from one of our 
operational space wings in a realistic threat scenario. They were able 
to develop new tactics, work on intelligence integration but most 
importantly, focus on fighting our systems in realistic threat 
environment. Our intent moving forward is to build on this success and 
have Space Flag events tied to each Space Mission Force training cycle.
    Mr. Bridenstine. The ability to provide responsive launch is a 
crucial aspect of space resilience. What efforts are being undertaken 
to ensure the nation has a range of flexible and responsive launch 
options that include expendable, partially reusable, and completely 
reusable assets? What funding levels are necessary to get a responsive 
launch capability demonstration program initiated?
    General Raymond. Flexibility and responsiveness are key parts of 
the Space Warfighting Construct. The foundation of our current 
architecture is fully expendable launch systems. Looking forward, the 
Space and Missile Systems Center has been actively engaged in 
continuing to expand the launch options for National Security Space. It 
is pursuing a number of initiatives including: new requirements for 
increased capabilities; multi-manifest (rideshare) opportunities in 
partnership with NASA; research and development of reusable launch 
systems; beginning to evaluate how to certify previously flown hardware 
and systems for future National Security Space launches; moving towards 
an Autonomous Flight Safety System; and leveraging allied capabilities 
in a contingency role for National Security Space launches. SMC is also 
partnering with NASA on a demonstration called Orbit Transfer Element 
to investigate a concept of operations to leverage lower cost launch 
capabilities by launching spacecraft to a Low-Earth Orbit and using 
other more efficient and cost effective technologies to move the 
spacecraft into a Geosynchronous Earth Orbit. We identified a Launch-
on-Demand (LOD) system as a part of the Space Enterprise Vision 
architecture. However, a defined requirement for a demonstration 
program and associated funding cannot be established until an 
achievable roadmap to a future end-state and key enabling technologies 
are developed. The Small Payload Rideshare Association (SPRSA) held a 
workshop with SMC and the NRO to discuss rapid launch and LOD 
initiatives in April 2017. The workshop included industry members 
Virgin Orbit, Rocket Lab, Orbital ATK, and X-Bow (pronounced Cross-Bow) 
Launch Systems. The goal of this workshop was to gain awareness of 
industry capabilities and timelines required to execute small Launch-
on-Demand missions. The Air Force Launch Enterprise Directorate at SMC 
will independently meet with each company to discuss costs and planning 
required to meet DOD responsive/rapid launch concepts and desired 
capabilities. Additionally, Congress increased the Space Test Program's 
budget this year by $15 million to explore procuring a Venture Class 
Launch service. The SMC team will work with the current Venture Class 
providers to demonstrate a rapid commercial launch of DOD research and 
development payloads to low earth orbit by the first quarter of FY19. 
This demonstration will provide insight into cost and capabilities 
available for future Launch-on-Demand missions.
    Mr. Bridenstine. As the SATCOM Pathfinders continue to progress are 
there any contracting obstacles that can inhibit success? For example, 
would a shift to multiyear contract authority (or another) help? If so, 
how?
    General Raymond. Currently, there are no contracting obstacles that 
inhibit Pathfinder success. Use of multi-year contract authority should 
not be a consideration as this time. It may be a consideration in the 
future if decisions are made to acquire all transponder communication 
capacity on several commercial satellites as a block type buy to meet 
warfighter protected tactical communication needs.
    Mr. Bridenstine. What benefits would a NATO ally launch back-up 
provide? Are efforts underway to explore such options? What is the 
necessary funding to study the feasibility of back-up launch capability 
with NATO allies?
    General Raymond. Having a NATO ally launch capability could 
potentially provide access to space for critical national security 
space assets in the event of catastrophic incidents occurring within 
the United States that affect U.S. launch capability. Beginning in 
2013, the Space and Missile Systems Center conducted an initial study 
into the possible use of allied launch systems by means of publicly 
available information. In the past 2 years, after deciding on 
Arianespace as a candidate ally launch system, SMC pursued an exchange 
of technical information with Arianespace in order to perform a study 
on the feasibility of their ability to provide a potential backup 
launch capability. The study is nearly complete and its findings are 
awaiting Air Force review.
    Mr. Bridenstine. Will JMS Inc 2 Full Deployment satisfy growing 
processing requirements associated with increased observations from new 
SSA sensors like Space Fence, ORS-5, etc, prior to delivery of ESBMC2?
    General Buck. We look forward to JMS increment 2 reaching full 
operational capability, especially as new sensors come on-line. JMS Inc 
2 is critical to incorporating data from these new sensors. As an 
example, we expect the Space Fence to provide a ten-fold increase in 
capabilities--moving from cataloging 23,000 object to over 100,000 
objects--and a fully-operational JMS Inc 2 will be absolutely key in 
leveraging these new capabilities.
    Mr. Bridenstine. Do you anticipate that JMS Inc2 Full Deployment 
will fulfill all SSA processing requirements from implementation until 
delivery of ESBMC2?
    If not, what is the USAF's plan to mitigate this gap? Will COTS 
capabilities with mature TRLs be considered for timely and cost-
effective implementation?
    General Buck. JMS Inc 2 replaces our legacy space situational 
awareness (SSA) capabilities, some of which have been operational since 
the early 1990s, while also improving system throughput and automation. 
This is especially important as we look toward the IOC in early 2019 of 
the Space Fence and the projected increase in capability. ESMBC2 will 
expand upon JMS Inc 2 to include higher security levels and an enhanced 
common operating picture. The Air Force will certainly consider 
commercial capabilities to mitigate any gaps between the full delivery 
of JMS Inc 2 and future ESBMC2 capabilities. We would expect to see 
similar possible solutions to that of the non-governmental SSA contract 
we are currently using to support the NSDC experimentation to address 
possible gaps between JMS and ESBMC2.
    Mr. Bridenstine. How does your recent Space Flag exercise enhance 
our space warfighter capability?
    General Buck. Space Flag is a critical tool for providing advanced 
training under our Space Mission Force construct. Unlike a ``Red Flag'' 
multi-domain exercise, where space forces are typically employed in 
support of a larger air campaign, Space Flag allows space crews to 
learn how to fight their own weapon systems. Space Flag give crews 
specific, realistic, threat-based scenarios to ``fight through.'' 
Focusing on fighting their specific weapon systems helps operators move 
from an engineering, or service-provider mindset to a warfighting 
mindset. We intend to build and mature Space Flag events within the 
Space Mission Force construct.
    Mr. Bridenstine. The ability to provide responsive launch is a 
crucial aspect of space resilience. What efforts are being undertaken 
to ensure the nation has a range of flexible and responsive launch 
options that include expendable, partially reusable, and completely 
reusable assets? What funding levels are necessary to get a responsive 
launch capability demonstration program initiated?
    General Buck. The ability to provide responsive launch is a crucial 
aspect of space resilience. What efforts are being undertaken to ensure 
the nation has a range of flexible and responsive launch options that 
include expendable, partially reusable, and completely reusable assets? 
What funding levels are necessary to get a responsive launch capability 
demonstration program initiated? Answer: As Commander JFCC SPACE, I 
would respectfully defer to Air Force Space Command and General Raymond 
on the acquisition and funding of space launch systems.
    Mr. Bridenstine. The ability to provide responsive launch is a 
crucial aspect of space resilience. What efforts are being undertaken 
to ensure the nation has a range of flexible and responsive launch 
options that include expendable, partially reusable, and completely 
reusable assets? What funding levels are necessary to get a responsive 
launch capability demonstration program initiated?
    Mr. Hill. In light of the enduring and rapidly evolving threats to 
our space capabilities, we need to continue to improve operational 
responsiveness and resiliency across all space mission areas, including 
launch, to provide overall space mission assurance. DOD acquires space 
launch services from U.S. commercial providers, which are making many 
innovative investments to reduce costs and diversify options, including 
partially reusable capabilities and more responsive systems. DOD's 
Fiscal Year 2018 investments focus on maintaining assured access to 
space by investing in the U.S. commercial launch base, and funding 
Research and Development, such as the Defense Advanced Research 
Projects Agency's (DARPA) Experimental Spaceplane 1, to mature and 
transition key technologies and operational processes for less 
expensive, responsive next-generation launch systems.
    Mr. Bridenstine. What benefits would a NATO ally launch back-up 
provide? Are efforts underway to explore such options? What is the 
necessary funding to study the feasibility of back-up launch capability 
with NATO allies?
    Mr. Hill. The Department of Defense is required by statute and 
policy to launch National Security Space (NSS) payloads on U.S.-
manufactured launch vehicles, unless the Secretary of the Air Force 
determines that there is a national security issue that precludes the 
use of U.S. commercial providers. Pursuant to the NDAA for FY 2017, 
Section 1604, DOD is developing a plan to use allied launch vehicles to 
meet the requirements for achieving the policy relating to assured 
access to space set forth in section 2273 of title 10, U.S. Code, in 
the event that such requirements cannot be met, for a limited period, 
using only launch vehicles of the United States. Work on this plan is 
ongoing, is funded, and is on schedule for submission to Congress in 
September 2017.

                                  [all]
</pre></body></html>
